A1

OPINION OF THE THIRD CIRCUIT
PRECEDENTIAL
UNITED STATES COURT OF APPEALS FOR THE
THIRD CIRCUIT
Nos. 19-1150 & 19-1151
In re: ODYSSEY CONTRACTING CORP.,
Appellant
L&L PAINTING CO., INC.
v
.
ODYSSEY CONTRACTING CORP.; FEDERAL
INSURANCE COMPANY
Appeal from the United States District Court for the
Western District of Pennsylvania
(D.C. Civil Action Nos. 2-18-cv-00456 and 2-18-cv00458)
District Judge: Honorable Cathy Bissoon
Argued September 25, 2019
Before: SMITH, Chief Judge, McKEE, AMBRO,
Circuit Judges
(Opinion filed: December 12, 2019)
Chris Georgoulis (Argued)
Georgoulis
120 Wall Street, Suite 1803 New York, NY 10005

A2

Robert O. Lampl
Rober O Lampl & Associates 223 Fourth Avenue, 4th
Floor
Pittsburgh, PA 15222
Counsel for Appellant
Jose Aquino
Charles Fastenberg (Argued)
Jeffrey W. Spear Duane Morris 1540 Broadway
New York, NY 10036
Joel M. Walker Duane Morris
600 Grant Street, Suite 5010
Pittsburgh, PA 15219
Counsel for Appellees

OPINION OF THE COURT
AMBRO, Circuit Judge
Appellant Odyssey Contracting Corp. and
Appellee L&L Painting Co., Inc. were, respectively, a
subcontractor and the prime contractor on a project
to repaint the Queensboro Bridge. Over the course of
that project, Odyssey and L&L became embroiled in
a dispute over whether L&L was underpaying

A3

Odyssey. Consequently, Odyssey stopped its work,
and the parties sued each other for breach of
contract. After Odyssey filed for bankruptcy, this
litigation became the subject of an adversary
proceeding in the Bankruptcy Court.
At the final pre-trial conference, the parties
entered into a stipulation approved by the
Bankruptcy Court. The stipulation provided that if
the Bankruptcy Court determined that Odyssey was
the breaching party, then "all of the [p]arties'
pending claims will be withdrawn and disposed of in
their entirety with prejudice" and the adversary
proceeding "shall be deemed to be finally concluded
in all respects."
Following a bench trial, the Bankruptcy Court
concluded that Odyssey was the breaching party.
Accordingly, it entered an order "direct[ing] [the]
parties to resolve the . . . adversary proceeding . . . in
compliance with the [s]tipulation." The order also
required the parties to provide a status update
within three weeks as to whether that had been
done.
Instead, Odyssey appealed to the District
Court, seeking review of the Bankruptcy Court's
decision that it was the breaching party. L&L moved
to dismiss the appeal, arguing that, under the terms
of the stipulation, Odyssey had released its claims
and waived its right to appeal. The District Court

A4

agreed and modified the Bankruptcy Court's order to
make it a dismissal of the adversary proceeding with
prejudice.
Odyssey now appeals to us. Because we agree
that Odyssey waived its right to appeal by entering
into the stipulation, we will affirm.
I.

Jurisdiction

The Bankruptcy Court had jurisdiction under
28 U.S.C. §§ 157(a) and 1334(b). The District Court's
jurisdiction, on which our jurisdiction depends, is
less certain.
District courts have jurisdiction to "hear
appeals . . . from final judgments, orders, and
decrees . . . of bankruptcy judges." 28 U.S.C. §
158(a)(1). The order from which Odyssey appealed
was the Bankruptcy Court's order directing the
parties to resolve the adversary proceeding per the
stipulation and requiring a status update on
whether that had been done. Was this a final order
conferring appellate jurisdiction on the District
Court? With some hesitation, we conclude that it
was.
"[C]onsiderations unique to bankruptcy
appeals" require "constru[ing] finality in a more
pragmatic, functional sense . . . ." In re Prof'l Ins.

A5

Mgmt., 285 F.3d 268, 279 (3d Cir. 2002). Thus, "a
bankruptcy court order ending a separate adversary
proceeding is appealable as a final order even though
that order does not conclude the entire bankruptcy
case." Id. at 281 (quoting In re Moody, 817 F.2d 365,
367-68 (5th Cir. 1987)). But in determining whether
an order deciding a specific adversary proceeding is
final, we typically "apply the same concepts of
appealability as those used in general civil
litigation." In re White Beauty View, Inc., 841 F.2d
524, 526 (3d Cir. 1988). "A final judgment is one
which ends the litigation on the merits and leaves
nothing for the court to do but execute the
judgment." Riley v. Kennedy, 553 U.S. 406, 419
(2008) (internal quotation marks omitted). Thus an
order is not final where it "contemplates the
possibility of future proceedings." Delgrosso v. Spang
& Co., 903 F.2d 234, 236 (3d Cir. 1990).
The Bankruptcy Court's order here could
suggest-if not contemplate-the possibility of future
proceedings, as it required the parties to "file a joint
status report indicating whether all actions in
compliance with the [s]tipulation and [o]rder ha[d]
been taken to resolve [the adversary proceeding] or,
if . . . not, why [not,]. . . and what steps remain to be
taken." If Odyssey had not appealed when it did, the
Bankruptcy Court may have issued a further order
dismissing the parties' claims pursuant to the
stipulation. Or it may have entertained a motion by
L&L to enforce the stipulation. But as things stood

A6

when Odyssey appealed, some further action was
required-either by the parties or the Bankruptcy
Court1
-as the order did not itself dismiss the parties' claims
or provide that it would automatically ripen into a
final order of dismissal absent some further action
by the parties within a specified time period. See
United States v. Wang, 926 F.2d 92, 94-96 (1st Cir.
1991) (concluding that an order was final where it
provided that a settlement agreement would take
effect unless the parties agreed to modify it within
sixty days, and noting that the order "did not
instruct the parties to report back for further
proceedings"); cf. Weber v. McGrogan, 939 F.3d 232,
239-40 (3d Cir. 2019) (holding that an order
dismissing a case without prejudice may be final
where it is "self-executing" because it contains
"language converting the dismissal to a final order at

1. The parties, for example, could have further
stipulated to dismissal under Federal Rule of Civil
Procedure 41, which would have required the
Bankruptcy Court to take no further action to dismiss
the matter. See Fed. R. Civ. P. 41(a)(1)(A)(ii) (providing
that an action may be dismissed without a court order
when a stipulation of dismissal signed by all parties is
filed); Fed. R. Bank. P. 7041 (providing that Federal
Rule of Civil Procedure 41 applies in adversary
proceedings).

A7

the end of [a specified] period").
On the other hand, "if only a 'ministerial' task
remains for the court to perform"-such as calculating
damages when that task is mechanical and
uncontroversial-"then immediate appeal is allowed."
Skretvedt v. E.I. DuPont De Nemours, 372 F.3d 193,
200 n.8 (3d Cir. 2004). Here, the most that remained
for the Bankruptcy Court to do was to enter a
further order dismissing the parties' claims per the
stipulation. Perhaps recognizing this, the District
Court declined to remand the case for the
Bankruptcy Court to "further interpret and enforce
its order approving the stipulation," concluding that
this would be "senseless[] given that Odyssey most[
]likely would appeal the resulting[ ]decision" back to
the District Court. J.A. 7. Instead, it took that small,
ministerial step itself, modifying the Bankruptcy
Court's order to dismiss the adversary proceeding
with prejudice.
Because all that remained for the Bankruptcy
Court to do was to dismiss the claims in accord with
the stipulation, and mindful that in the bankruptcy
context we construe finality in a more pragmatic,
functional sense, we conclude that the Bankruptcy
Court's order was final such that the District Court
had jurisdiction to consider Odyssey's appeal under
28 U.S.C. § 158(a)(1). And because that Court had
appellate jurisdiction, we have jurisdiction to review
its final order disposing of the appeal under 28
U.S.C. §§ 158(d)(1) and 1291.

A8

II.

Analysis2

Having determined that we have jurisdiction,
we next consider whether Odyssey waived its right
to appeal by agreeing to the stipulation. We
conclude that it did.
In construing a stipulation, we consider first its
plain language. Waldorf, 142 F.3d at 612. What the
words indicate is that Odyssey waived its right to
appeal the Bankruptcy Court's determination that it
was the breaching party.
Paragraphs 1 and 2 of the stipulation set out
the relevant language:
1.
In the event this Court [i.e., the
Bankruptcy Court] determines after
trial that Odyssey was the breaching
party, then L&L's damages claim for

2 “Because the District Court sat [here] as an appellate
court, [we] conduct[] the same review of the Bankruptcy
Court's order as did the District Court.” In re Telegroup,
Inc., 281 F.3d 133, 136 (3d Cir. 2002). Our review of the
latter's construction of the stipulation is plenary.
Waldorf v. Shuta, 142 F.3d 601, 608 & n.1 (3d Cir.
1998).

A9

the said breach(es) will be deemed to
exceed Odyssey's damages claims for all
of its claims . . . ; and, thereupon, all of
the Parties' pending claims will be
withdrawn and disposed of in their
entirety with prejudice by L&L and
Odyssey, respectively.
2.
In the event the Court
determines after trial that Odyssey was
the breaching party, the Parties'
withdrawal and disposition of their
respective claims . . . shall include all
their damages claims for. . . any and all
. . . alleged wrongdoing of any type or
description; . . . and this proceeding
shall be deemed to be finally concluded
in all respects. The Parties shall
exchange mutual final releases
reflecting the terms of this Stipulation.
J.A. 473-74 (emphases added).
The stipulation does not specifically refer to
Odyssey's right to appeal the Bankruptcy Court's
determination, yet several aspects of the above
language indicate an intent to waive that right.
First, the stipulation provides that, following
the Bankruptcy Court's determination, Odyssey

A10

will "thereupon. . . withdraw[] and dispose[] of" its
claims. Id. at 474. "[T]hereupon" indicates that
Odyssey will resolve its claims "immediate[ly];
without delay; [or] promptly." Thereupon, Black's
Law Dictionary (11th ed. 2019). It is difficult to
reconcile this language with Odyssey's reading of the
stipulation, under which Odyssey need not dispose of
its claims until after the resolution of one or more
appeals, which would necessarily prolong the
litigation.
Second, the stipulation provides that, upon
the Bankruptcy Court's decision, "this proceeding
shall be deemed to be finally concluded in all
respects." J.A. 474 (emphasis added). Again, the
possibility of an appeal is not consistent with this
language: if an appeal were possible, then the
proceeding is not finally concluded in all respects;
indeed, the proceeding may continue on appeal and,
should the appeal result in reversal, it may continue
in the Bankruptcy Court.
Furthermore, paragraph 1 of the stipulation
not only provides for the disposal of all of the parties'
pending claims, but specifies that this disposition is
"with prejudice." The inclusion of this legal term of
art undeniably established that if the Bankruptcy
Court-not the District Court or the Court of Appealsfound Odyssey to be the party that breached the
contract, the litigation would end. In other words,
the stipulation barred any appeal. See With

A11

Prejudice, Black's Law Dictionary (11th ed. 2019).
Apart from disputing the meaning of the
stipulation's plain language, the parties ask us to
apply opposite rules of construction where the
stipulation is silent as to the right to appeal.
Odyssey argues silence cuts in its favor, positing
that a stipulation for a trial court to decide a certain
claim does not waive the right to appeal the claim
unless it is expressly waived. L&L urges the opposite
rule-under which silence would support its positionarguing that a stipulation to a certain resolution of a
claim waives the right to appeal the claim unless the
right is expressly reserved. While neither party's
position finds direct support in our cases, L&L's
position is the better fit here.
L&L relies on the well-established principle
that a party cannot appeal from a consent judgment
if it did not expressly reserve its right to do so. See,
e.g., Keefe v. Prudential Prop. & Cas. Ins. Co., 203
F.3d 218, 222-23 (3d Cir. 2000). In Keefe we held
that a party may appeal from a consent judgment in
order to challenge some contested order preceding
the judgment so long as "it is clear from the record
that the parties stipulated to [the] consent judgment
with the express understanding that the party
against whom judgment was entered would appeal
[the] contested issue." Id. at 223. Our rationale for
requiring a party to make clear its intent to appeal is
to prevent unfair surprise to the opposing party, who

A12

agreed, after all, to settle the case without further
litigation and "should not be left guessing about the
finality and hence efficacy of the settlement." Id.
(quoting Ass'n of Cmty. Orgs. for Reform Now v.
Edgar ("ACORN"), 99 F.3d 261, 262 (7th Cir. 1996)).
Odyssey correctly points out that the
stipulation here is not a consent judgment as it was
in Keefe. There the parties stipulated to a judgment
in favor of the plaintiff with the understanding that
the defendant would then appeal to seek review of a
previous order-specifically, an order denying
summary judgment to the defendant. 203 F.3d at
220. Here, by contrast, the stipulation was entered
before trial, setting out the effect that a subsequent
determination at trial would have on the
proceedings-specifically the determination that
Odyssey was the breaching party.
We conclude that this distinction makes no
meaningful difference. In both instances the parties
have agreed to resolve and end the litigation based
on the Court's determination of a contested issue.
The parties did so in Keefe after the District Court
decided the contested issue; here the parties did so
prospectively, that is, before the contested issue was
decided. But the rationale for the rule in Keefe
applies equally in both circumstances: a party that
agrees to resolve and end a case- and thus gives up
its right to press its claims or defenses in exchange
for finality-should not be left guessing whether the

A13

opposing party can appeal. Rather, the party seeking
to appeal must make its intent to do so clear at the
time of the stipulation
.
For its part, Odyssey relies on cases from our
sister circuits that it contends establish a different
rule: where the parties have stipulated that a trial
court will decide a certain issue, the right to appeal
must be expressly waived. See, e.g., In re Deepwater
Horizon, 785 F.3d 986, 997 (5th Cir. 2015); Montez
v. Hickenlooper, 640 F.3d 1126, 1132 (10th Cir.
2011)3

3 Odyssey also relies on two of our decisions, Nicholson
v. Altona Corp., 320 F.2d 8, 12 (3d Cir. 1963), and
Anderson v. White, 888 F.2d 985, 990-91 (3d Cir. 1989).
Both are distinguishable, as neither involved a
stipulation setting the process for resolving and ending
the litigation.

In Nicholson the parties stipulated that the defendant
would deposit a check in escrow to satisfy "any [j]udgment that
may be rendered . . . in favor of plaintiff." 320 F.2d at 12. We
held that this stipulation did not waive the defendant's right to
appeal the judgment. Id.

In Anderson the Court entered summary judgment in
favor of all defendants except one (Kravitz), who had failed to
move for summary judgment even though the claims against

A14

. But even assuming these cases are persuasive, they
are distinguishable in a significant way: they involve
class-action consent decrees, in which the parties
established a dispute resolution procedure for
addressing individual class members' claims over
which a district court was made the decisionmaker.
In re Deepwater Horizon, 785 F.3d at 989; Montez,
640 F.3d at 1129.
The interest at stake in those cases was
different from that at issue here. In class actions,
settlement agreements cannot be approved unless
the court determines that they are "fundamentally
fair, reasonable, and adequate," the purpose of which
is to "protect unnamed members of the class from
unjust or unfair settlements." Ehrheart v. Verizon
Wireless, 609 F.3d 590, 592-93 (3d Cir. 2010). It may
be that the interest in protecting individual class
members requires an explicit waiver of the right to
appeal. But that interest does not apply in our case,
which involves a dispute between sophisticated
business entities. What does apply is the interest we
identified in Keefe-preventing a party from being
caught by surprise or "left guessing about the
her turned on the same issues. 888 F.2d at 990. Recognizing
this oversight prevented an immediate appeal, the plaintiffs
and Kravitz stipulated to entry of summary judgment for
Kravitz. Id. We held the stipulation did not waive the plaintiffs'
right to appeal and had merely "cure[d] a procedural problem."
Id. at 991.

A15

finality and hence efficacy of the [stipulation for
resolution]." Keefe, 203 F.3d at 223 (quoting ACORN,
99 F.3d at 262).
In sum, the language of the stipulation
confirms Odyssey's intent to end all its pending
claims if the Bankruptcy Court rules that Odyssey
breached its contract with L&L. And this
construction is further supported by the rule we set
out in Keefe: a party that seeks to appeal must make
its intent to do so clear at the time of the stipulation
setting the manner for resolution. Accordingly, we
conclude that Odyssey waived its right to appeal the
Bankruptcy Court's order and will affirm the order
of the District Court.

A16

ORDER DENYING REHEARING
UNITED STATES COURT OF APPEALS FOR THE
THIRD CIRCUIT
________________
Nos. 19-1150 & 19-1151
________________
In re: ODYSSEY CONTRACTING CORP.,
Appellant
L&L PAINTING CO., INC.
v.
ODYSSEY CONTRACTING CORP.; FEDERAL
INSURANCE COMPANY
________________
Appeal from the United States District Courtfor the
Western District of Pennsylvania(D.C. Civil Action
Nos. 2-18-cv-00456 and 2-18-cv-00458)
District Judge: Honorable Cathy Bissoon
____________________________________
Before: SMITH, Chief Judge, McKEE, AMBRO,
CHAGARES, JORDAN, HARDIMAN, SHWARTZ,
KRAUSE, RESTREPO, BIBAS, PORTER, MATEY
and PHIPPS, Circuit Judges
SUR PETITION FOR REHEARING
The petition for rehearing filed by Appellant
in the above-entitled cases having been submitted to
the judges who participated in the decision of this
Court and to all the other available circuit judges of
the circuit in regular active service, and no judge
who concurred in the decision having asked for
rehearing and a majority of the judges of the circuit

A17

in regular service not having voted for rehearing, the
petition for rehearing by the panel and the Court en
banc, is denied.
By the Court,
s/ Thomas L. Ambro, Circuit Judge
Dated: January 6, 2020
Lmr/cc: All Counsel of Record

A18

ORDER OF THE DISTRICT COURT
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF
PENNSYLVANIA

ODYSSEY CONTRACTING CORP.,

)
)
Appellant,
)
)
v
)
)
L&L PAINTING CO., INC. and
)
FEDERAL INSURANCE COMPANY, )
)
Appellees.
)
ORDER
For the reasons that follow, Odyssey’s appeal
to this District Court will be dismissed, as will the
parties’ adversarial bankruptcy proceeding.
The parties and counsel are familiar with the
procedural history, and substance, of the instant
matters, and the Court writes only for their benefit.
In advance of a bench trial before the Bankruptcy
Court, the parties filed a Stipulation dictating the

A19

legal-effect of that Court’s decision. The Stipulation,
which was signed by the parties and approved by
order of the Bankruptcy Court, stated in relevant
part:
[The parties] hereby stipulate and
agree as follows with respect to their
respective claims with regard to the
project known as the Repainting of the
Queensboro Bridge . . ., which claims
are pending in this proceeding and
presently scheduled for trial . . . before
[the Bankruptcy] Court: In the event
[the Bankruptcy Court] determines
after trial that Odyssey was the
breaching party, then L&L’s damages
claim[s] . . . will be deemed to exceed
Odyssey’s damages claim[s]. . . . all of
the parties pending claims will be
withdrawn and disposed of in their
entirety with prejudice[,] . . . and this
proceeding shall be deemed to be finally
concluded in
all respects. The [p]arties shall
exchange mutual final releases
reflecting the
terms of this Stipulation.
Doc. 8-1 in Civil Action No. 18-458, at pgs, 3 through
5 of 202 (emphasis added).

A20

The Bankruptcy Court held a trial, and
afterward, it issued a detailed 42-page memorandum
opinion, holding that Odyssey was, in fact, the
breaching-party. Accordingly, the Bankruptcy Court
contemporaneously-issued an order directing the
parties to resolve the adversarial proceeding “in
compliance with [their] Stipulation.” Doc. 8-1 at pgs.
53 and 54 of 202. The order closed by directing the
parties to file a joint-status report, shortly
thereafter, regarding their compliance. Id.
Before the status-report deadline expired,
Odyssey filed notices of appeal to the District Court,
in the adversarial proceeding and in Odyssey’s
related Chapter 11 action. The appeals have been
consolidated in this Court at Civil Action No. 18-458.
L&L’s Motion to dismiss this appeal is well
Although L&L urges that the relevant
inquiries be addressed under the rubric of Federal
Civil Rules 16 and/or 60, the Court believes that the
Stipulation, alone, is the starting and ending point.
Similarly, neither side’s cited-case law is particularly
illuminating, as relates to the specific issues and
circumstances involved; and the Court’s independent
research has failed to uncover on-point legal
taken.4

1 The interests of appellees L&L and Federal Insurance
Company are aligned, and they will be referred to collectively
as "L&L.

A21

authority. At bottom, the Court is left with the
specific-circumstances presented, and common sense
notions of judicial administration and fairness.
The language of the Stipulation, as drafted
and signed by the parties, is clear. In the event that
Odyssey was found the breaching-party, that ruling
rendered the adversarial proceeding “finally
concluded,” “with prejudice.” Odyssey’s counsel
clearly knew, or should have known, that their client
may-well disagree with the Bankruptcy Court’s
decision. In failing to address the possibility of an
appeal, it appears that only one of three things could
have been true: Odyssey and its counsel meant what
they said, and the ruling fully and finally resolved
the matter; Odyssey and its counsel failed to
consider the possibility of wanting to appeal (an
unflattering picture of Odyssey, a sophisticated
business-entity, and its counsel, to be sure); or (leastflatteringly) they were deliberately-obtuse, with the
hope of having their cake and eating it too.
Options two and three are troublesome, and
the Court will not impute them to Odyssey or its
counsel. That leaves option-one, under which the
Bankruptcy Court’s merits-decision is the last word.
To the extent that Odyssey prefers the other
conclusions, or another one the undersigned
presently cannot fathom, the Court rejects its
arguments and finds that “th[e adversarial
bankruptcy] proceeding [has been] deemed to be

A22

finally concluded in all respects.” See discussion
supra,(quoting Stipulation).
These things being said, the Court cannot
fully-endorse L&L’s position that Odyssey has
misconstrued the issues as involving appellatewaiver. The inability of Odyssey to properly appeal
the Bankruptcy Court’s trial-determinations is the
proverbial "elephant in the room,” and this Court
does not believe that turning a blind-eye improves
the situation.
Somewhat relatedly is the question of what’s
next. The Court is immovable in its conclusion that
an appeal to the District Court is improper; and
remanding the case so that the Bankruptcy Court
further may interpret and enforce its order
approving the Stipulation appears senseless (given
that Odyssey most-likely would appeal the resultingdecision to this Court).
Similarly, forcing Odyssey’s hand to negotiate
and execute a release likely would result in
additional, protracted legal-wrangling; and it would
not result in L&L’s presumed end-goal (namely,
preventing or undermining Odyssey’s appeal to the
Circuit).
Under the circumstances, the Court will
modify the Bankruptcy Court’s order dated March

A23

20, 2018, such that it constitutes a dismissal of the
adversarial action, with prejudice, in conformity
with the parties’ Stipulation, In re Cohen, 106 F.3d
52, 55 n.l (3d Cir. 1997)(on appeal, a district court
“may affirm, modify, or reverse a bankruptcy judge’s
judgment, order or decree”) (citation omitted,
emphasis added); accord Garrett v. Chase Home
Finance, 2018 WL 306792, *2 (M.D. Pa. Jan. 5, 2018)
(same). The ruling also is dispositive of “Debtor's
Objection to Claim No. 16 by L&L Painting Co.,
Inc.,” in the Chapter 11 proceeding. See Bankr. Ct.’s
Mem. Opinion at 2 (Doc. 8-1 in Civil Action No. 18458, at pg. 11 of 202).
Consistent with the foregoing, the Bankruptcy
Court’s Order dated March 20, 2018 is modified, as
follows:
1. The Bankruptcy Court having determined
after trial that Odyssey was the breaching party,
L&L’s damages claim(s) for the said breach(es) are
deemed to exceed Odyssey’s damages claims for all of
its claims including its claims (a) against L&L and
Federal for alleged non-payment for work performed
and/or other alleged breaches, and (b) against L&L
for alleged conversion of Odyssey’s equipment, tools,
and other property; and, thereupon, all of the
parties’ pending claims are disposed of in their
entirety with prejudice.
2. The disposition of the parties’ respective
claims in paragraph “1” above shall include all their

A24

damages claims for alleged non-payment, breach of
contract, conversion, and any and all other alleged
wrongdoing of any type or description; and shall also
include each party’s respective claims for interest,
costs, attorneys’ fees, and any and all other charges,
claims, or causes of action of any nature which each
party has asserted, could have asserted, or may at
any time in the future assert against any other party
relating to the Project or the work at the Project; and
the proceeding is deemed to be finally concluded in
all respects.
Otherwise, L&L’s Motion to Dismiss (Doc. 7 in
Civil Action No. 18 458, as amended in Doc. 10) is
GRANTED; the appeals at Civil Action Nos. 18-458
and 18-456 are DISMISSED; the cases will be
marked closed; and Rule 58 judgments will issue.
IT IS SO ORDERED.
s/Cathy Bissoon
Cathy Bissoon
United States District Judge
December 20, 2018
cc (via ECF email notification):
All Counsel of Record
2 Although the substance of Odyssey’s putativeappeal is not presently before the Court, Odyssey’s
opposition-papers offer a preview. See Doc. 28 in
Civil Action No. 18-458 at 9-11 (arguing that

A25

Bankruptcy Court’s trial-rulings were “at odds with
applicable New York law.”) Having carefully
reviewed the Bankruptcy Court’s opinion, however,
this Court questions the wisdom of counsel’s
suggestion that the decision is likely to succumb
under the governing appellate-standards- as relates
to the specific issues-referenced, or more generally.
Cf. id. at 9 (opining that the issues on appeal are/will
be “plainly meritorious”). Judge Bohm’s 42-page
opinion, which is meticulous and painstaking in
detail, gave careful consideration to all of the parties’
legal positions; and she offered cogent, well-reasoned
explanations for her determinations. Although this
Court cannot dictate where things go from here,
Odyssey and its
counsel would be well-served to engage in careful
self-reflection, vis-a-vis the likelihood of their
ultimate-success; the attendant cost-benefit
analyses; and the common-desire not to “throw good
money after bad.”

A26

OPINION OF THE BANKRUPTCY COURT
581 B.R. 762
IN RE: ODYSSEY CONTRACTING CORP.,
Debtor.
L & L Painting Co., Inc., Plaintiff,
v.
Odyssey Contracting Corp., Defendant,
and
Federal Insurance Company, Additional
Defendant on Counterclaim.
Bankruptcy No. 15–22330–CMB
Adv. Proc. No. 15–2164–CMB
United States Bankruptcy Court, W.D.
Pennsylvania.
Signed March 20, 2018
[581 B.R. 763]
Chris Georgoulis, James Lainas, Georgoulis PLLC,
New York, NY, Robert O. Lampl, Robert O. Lampl
Law Office, Pittsburgh, PA, for Debtor and
Defendant.

A27

Jose A. Aquino, Charles Fastenberg, Allen J. Ross,
Duane Morris LLP, New York, NY, Jeffrey W. Spear,
Joel M. Walker, Duane Morris LLP, Pittsburgh, PA,
for Plaintiff and Additional Defendant on
Counterclaim.
MEMORANDUM OPINION
Carlota M. Böhm, United States Bankruptcy Judge
On August 25, 2015, Odyssey Contracting Corp.
(hereinafter "Debtor" or "Odyssey") commenced the
above-captioned adversary proceeding by filing a
Notice of Removal , thereby removing a breach of
contract action from the Supreme Court of the State
of New York ("State Court") to this Court. The
breach of contract action was filed by L & L Painting
Co., Inc. ("L & L") against Odyssey, and Odyssey, in
turn, filed counterclaims against L & L. Federal
Insurance Company ("Federal") was named as an
additional defendant on a counterclaim. The dispute
arises out of a project to repaint the Queensboro
Bridge in New York City. L & L was the prime
contractor on the project, and Odyssey worked as a
subcontractor. Federal is L & L's payment bond
surety.1

A28

The matters presently before the Court are the
Amended Verified Complaint ("Amended Complaint,"
Doc. No. 13–6) and the Amended Answer and
Counterclaims ("Amended Counterclaims," Doc. No.
13–9). Related to the removed litigation is the
Debtor's Objection to Claim No. 16 by L & L Painting
Co., Inc. ("Objection to Claim"), which will be
resolved with this adversary proceeding as the claim
is based upon the litigation that was removed to this
Court.2 Trial on these matters was held October 2–5,
2017. Pursuant to the parties' agreement, the issue
at trial was limited to determining which entity was
the breaching party. For the reasons expressed
herein, this Court finds Odyssey was the breaching
party. Therefore, this adversary proceeding shall be
resolved in compliance with the parties' agreement
set forth in the Stipulation and Order entered
September 13, 2017 ("Stipulation and Order," Doc.
No. 162).
Jurisdiction
Pursuant to 28 U.S.C. §§ 1334(b) and 157(a), this
Court has subject matter jurisdiction over this
proceeding. With respect to matters determined to be
core, a bankruptcy judge may hear and determine

A29

such matters and enter appropriate orders and
judgments. See 28 U.S.C. § 157(b)(1). Initially,
[581 B.R. 764]
the parties disputed the core nature of this
proceeding as only the Debtor characterized the
proceeding as core. Subsequently, L & L and Federal
filed their Consent to Jurisdiction of the Bankruptcy
Court (Doc. No. 82) followed by a joint filing (Doc.
No. 101) in which the parties submitted that the
matters should be deemed core in nature and subject
to final adjudication by this Court. Thus, even if this
proceeding were determined to be non-core, this
Court may nonetheless adjudicate the claims upon
the parties' knowing and voluntary consent. See
Wellness Int'l Network, Ltd. v. Sharif , ––– U.S. ––––
, 135 S.Ct. 1932, 1949, 191 L.Ed.2d 911 (2015).
Background
This litigation has a lengthy history pre-dating the
filing of this bankruptcy case by approximately
seven years. L & L commenced this action in the
State Court in 2008. In 2011, L & L's Amended
Complaint
was
filed.
Odyssey's
Amended
Counterclaims followed. Then, in 2013, both L & L
and Odyssey moved for summary judgment. In a

A30

decision dated September 25, 2014, ("Summary
Judgment Decision") the State Court granted L & L's
motion to the extent that the second, fourth, fifth,
and sixth counterclaims were dismissed but denied
the motion as to the first, third, and seventh
counterclaims. The surviving counterclaims include
Odyssey's breach of contract claim alleging
underpayment by L & L, its claim for conversion of
its property by L & L, and the claim against Federal
for payment on the bond. In the same Summary
Judgment Decision, Odyssey's motion for summary
judgment was denied. Thereafter, both L & L and
Odyssey appealed to the Appellate Division of the
Supreme Court of the State of New York.
Prior to resolution of the appeals, Odyssey
commenced this bankruptcy case on June 29, 2015,
by filing a petition for relief under Chapter 11 of the
Bankruptcy Code. The filing of the bankruptcy case
stayed the progress of the appeals. Then, on August
25, 2015, Odyssey removed the action to this Court.
On October 30, 2015, a Consented to Order of Court
was entered granting limited relief from stay to
conclude the appeals. In addition, the parties agreed
to participate in mediation. Ultimately, the
Summary Judgment Decision was affirmed, and the
attempt at mediation proved unsuccessful. Two

A31

additional attempts to mediate also failed to result
in a settlement. Accordingly, the matter proceeded to
trial on October 2–5, 2017.
The parties' presentations at trial were focused on
identifying the breaching party. Pursuant to the
Stipulation and Order, a determination that Odyssey
was the breaching party would result in all pending
claims being withdrawn and disposed of in their
entirety by both parties. To the contrary, if the Court
determined L & L to be the breaching party, then
Odyssey's claims for liability and/or damages were to
be reserved for a determination at a future hearing
to be scheduled by the Court. Post-trial briefing
concluded on December 29, 2017, and the matter is
ripe for decision.
Findings of Fact
The Project
L & L is a commercial painting business that has
performed work on a number of bridge painting
projects. Transcript A, at 30–31, 34.3 In the course of
bidding on a project, Odyssey was recommended to L
& L as an established bridge painting contractor.
Transcript A, at 37. Thereafter,

A32

[581 B.R. 765]
Alvin Levine, then-president of L & L,4 contacted
Stavros Semanderes ("Semanderes"), president of
Odyssey, to obtain an estimate for subcontracting
work. Transcript E, at 9–10. Although L & L was not
awarded that project, L & L once again commenced
discussions with Odyssey when the Queensboro
Bridge was coming up for a bid. Transcript A, at 38;
Transcript E, at 11.
This time L & L's bid was successful. Pursuant to a
contract entered into in the fall of 2003 ("Prime
Contract," Exhibit 13), L & L became the prime
contractor for the New York City Department of
Transportation ("NYCDOT")5 for the repainting of
the Queensboro Bridge (the "Project"). See
Consolidated List of Undisputed Facts ("Undisputed
Facts," Doc. No. 165), at 2 (¶ 1), 5 (¶ 1). The purpose
of the Project was to remove the existing lead paint
on the steel portions of the bridge to repaint with
lead-free paint.6 Among other operations, the Project
required containment and blasting work. See L & L
PFC, at ¶¶ 9–11; Odyssey Reply to PFC, at ¶ 2. The
containment work required the enclosure of the site
with tarps and nettings to protect against lead and
other chemicals entering the environment as well as

A33

shielding work requiring the installation of
platforms to protect both motorists and pedestrians
from falling materials. See L & L PFC, at ¶¶ 9–10;
Odyssey Reply to PFC, at ¶ 2. The blasting work
required removal of existing paint through
sandblasting followed by repainting. See L & L PFC,
at ¶ 11; Odyssey Reply to PFC, at ¶ 2. The base price
of the Project exceeded $167 million. See Undisputed
Facts, at 2 (¶ 1), 5 (¶ 2).
The Subcontracts
After becoming the successful bidder, L & L sought
to secure Odyssey as a subcontractor on the Project.
Odyssey's work was to be done at an area designated
as Location 2, specifically the truss and towers, also
referred to as the main span of the bridge. See L & L
PFC, at ¶ 12; Odyssey Reply to PFC, at ¶ 2. The
work included the bridge's four towers, which
provided structural support to the bridge and were
topped off by spires. Undisputed Facts, at 5 (¶ 39).
Odyssey's two main operations at its designated
location were the preliminary operation of the
containment work followed by the blasting and
repainting. See L & L PFC, at ¶¶ 13, 16; Odyssey
Reply to PFC, at ¶ 2. Although initially Semanderes
advised that Odyssey would do this work for a price

A34

of $50 million, he subsequently agreed to accept $40
million. Transcript E, at 12, 16. However, as
Odyssey had no bonding at the time, the parties
sought to resolve this issue by breaking the
agreement into four subcontracts ("Subcontracts")7
to enable Odyssey to obtain
[581 B.R. 766]
bonding. Transcript E, at 16.8 Despite all four
documents being available for the parties to execute
simultaneously, Odyssey was unable to sign the
Subcontracts at the same time without being in
conflict with its bond provisions on the first
Subcontract. Transcript A, at 64. Although Odyssey
began work on the Project in 2004, the three
remaining Subcontracts, all dated March 3, 2004,
were executed by the parties over a period of two
years. See id. ; Undisputed Facts, at 3 (¶ 26), 8 (¶
65).
The Subcontracts contain the same terms and
conditions and differ only in the identification of the
different portions of Odyssey's work on the towers
and truss of the bridge.9 Each of the Subcontracts
was drafted to provide a value of $8,882,500, "subject
to additions and deductions for changes agreed upon
or determined...." See Subcontracts, Section 3(a).10

A35

Based upon this amount, the total value of the
Subcontracts equals $35,530,000. However, the
attachment to each Subcontract provides additional
information connecting this amount with the agreedupon amount of $40 million:
Contract value had initial base value of
$10,000,000.00. A $500,000.00 deduct
[sic] has been taken for the absence of a
bond at this time. A 6.5% deduct [sic] has
been taken on the $9,500,000.00 sales
value of the balance for the Project
provided wrap-up program.
See, e.g. Exhibit 23, at 1085. Thus, the amount of
$35,530,000 represents an unbonded value.
Transcript A, at 10. The fully bonded value, with the
deduction for wrap-up insurance, totals $37,400,000.
Transcript A, at 10; Exhibit 58. From the total
contract price, the parties broke down the operations
to be performed by Odyssey and the value of such
operations for the purpose of facilitating monthly
progress payments.
Trade Payment Breakdowns
The Court begins by addressing L & L's line item
value for the containment operations at Location 2.

A36

The particular line item at issue in this case is Item
39832.300102 identified as Class "A" Containment
System(s) Location 2 ("Location 2 Containment")
with a unit cost of $38 million. See, e.g. , Exhibit
AAA–1, at NYCDOT000913; Exhibit K, at LLPaint
008795. Notably, in addition to Odyssey, another
subcontractor, Alpha Painting & Construction Co.,
Inc. ("Alpha"), performed work at Location 2. See L
& L PFC, at ¶ 6; Odyssey Reply to PFC, at ¶ 1.
Although both Odyssey and Alpha performed
containment work, Odyssey's work involved the
towers and truss from the upper roadway to the top
of the bridge while Alpha's containment work was
limited to the roadways and did not include work at
the
[581 B.R. 767]
towers. See L & L PFC, at ¶¶ 17–19; Odyssey Reply
to PFC, at ¶ 2. Line item values were broken down
for the purpose of monthly billing.
As agreed upon with NYCDOT, L & L's value for
tower and truss containment work at Location 2
(work to be done by Odyssey) was $17,259,000.
Undisputed Facts, at 6 (¶ 24). This amount was
further broken down for the purpose of monthly
payment requisitions to the City. Accordingly, for

A37

billing and payments, the main span of the bridge
was divided into 122 designated locations identified
as bays or sections. Id. at 2 (¶ 11). A bay or section is
defined as the metal portion of the bridge between
two successive panel points. Undisputed Facts, at 2
(¶ 12). A panel point is the intersection of a
horizontal and vertical member of the bridge. Id.
Thus, the 123 panel points formed 122 bays. Id. at 3
(¶ 13). Pursuant to L & L's agreement with the City,
the total value of the tower and truss containment
work was divided equally among the 122 bays
resulting in a value of $141,467.21 per bay. See, e.g.,
Exhibit K, at LLPaint 008795; Exhibit AAA–1, at
NYCDOT000916. The containment work at the
bridge's four towers was built into L & L's price for
each one of the 122 bays.
During April and May of 2004, L & L and Odyssey
were working toward finalizing Odyssey's payment
breakdown. Transcript E, at 19, 23; Exhibits R282,
R283, R285, R286, R287. During the course of
negotiations, Semanderes asserted that the main
issue was the dollar value that would be assigned to
the truss for containment. Transcript E, at 20. In
determining the appropriate value for the
containment portion of its work, Odyssey asserted
that it was difficult work and, as a preliminary

A38

operation, Odyssey would benefit most from having
money up front for cash flow to support the job.
Transcript E, at 20–21. Accordingly, Odyssey sought
to maximize the amount allocated to the
containment operations.
By fax dated May 11, 2004, L & L's draft trade
payment breakdown was sent to Semanderes.
Exhibit R285. Therein, L & L proposed a unit cost
for
Odyssey's
containment
work
totaling
$13,243,520, which was further broken down into
two components: (1) the four towers, valued at 5%
per tower, with a total value of $2,648,704 and (2)
the truss, valued at a total of $10,594,816 or
$86,136.72 per bay. Transcript E, at 39–40. This
proposal, however, did not satisfy Odyssey's desire to
have a significant amount allocated to the
containment work. This is clear as Semanderes
provided his proposed trade payment breakdown,
which valued the containment work at $18,700,000,
or $153,278.68 per bay, without any separate
treatment of the four towers. Transcript E, at 25–28;
Exhibit R286. Semanderes asserts that his proposed
payment breakdown was rejected by L & L on the
basis that L & L had already negotiated a payment
breakdown between itself and the Owner which

A39

could not be changed for Odyssey. Transcript E, at
23–25, 28–29.
The negotiations continued, and a revised payment
breakdown was faxed from L & L to Odyssey on May
25, 2004. Exhibit R287. Once again, the proposal
breaks out the towers within the containment work;
however, the unit cost for containment increased
from the original proposal and the percentage per
tower decreased to 4%. See id. At the bottom of the
page, Semanderes initialed the document, indicating
his understanding and consent to a payment
breakdown which would carve out the containment
work on the towers. See id. ; Transcript E, at 41–42.
This indication of consent is confirmed by the
credible evidence.
[581 B.R. 768]
Ultimately, the Court finds that L & L and Odyssey
reached an agreement with respect to Odyssey's unit
costs for its two primary operations: $16,106,800 for
containment11 and $19,197,200 for the blasting and
repainting. See L & L PFC, at ¶ 15; Odyssey Reply to
PFC, at ¶ 2. Further, based upon the credible
evidence, the Court finds that the parties' final
agreement carved out the tower work from the total
unit cost of containment in the amount of

A40

approximately $2.5 million or $644,250 per tower.
See Exhibit 58. As set forth more fully infra , this
payment breakdown was applied during the course
of the Project and reflected in the documentation
provided by L & L to Odyssey on a monthly basis
relative to Odyssey's progress payments.
Odyssey now asserts, however, that it was misled to
believe that the towers were broken out in L & L's
agreement with the City as well. Odyssey contends
that L & L's representations are consistent with the
conclusion that only one trade payment breakdown
exists (that between the City and L & L), which was
to be mirrored by L & L with the subcontractors.12
The Court finds the allegation is not supported by
the credible evidence. Specifically, Odyssey has
placed a great deal of emphasis on deposition
testimony of Scott Earl ("Earl"), the project manager
for L & L. On this point, Earl testified as follows:
Q And then obviously, the agreement
between L & L and the City has to be
somewhat reflected in the agreement
between L & L Painting and its
subcontractors, such as Odyssey so that
everything works out and fits.

A41

A Correct.
Transcript C, at 23 (emphasis added). See also
Transcript C, at 26 (responding affirmatively to the
question of whether the agreement with the
subcontractors had to be "[a] mirror image, or
something like a mirror image with the line items to
the City...."). These statements do not support the
conclusion that the payment breakdowns were
represented to be identical, only similar for the
purpose of invoicing.
In addition, Odyssey cites to a number of letters
which reference the payment breakdown between L
& L and the City and the potential impact on
Odyssey. However, these are also unpersuasive to
establish Odyssey's contention. Earl credibly
testified with respect to these letters, and the
evidence supports only the conclusion that the
payment breakdowns were similar. See Transcript B,
at 81–90; Transcript C, at 32–34; Exhibits G, L, M,
N, and 37.
[581 B.R. 769]
The fact that L & L may have been negotiating with
Odyssey within the bounds of its own agreement

A42

with the NYCDOT does not necessarily lead to a
different conclusion. For instance, Semanderes'
assertion that his proposed trade payment
breakdown was rejected by L & L on the basis that L
& L had already negotiated its prices with the City
does not establish support for Odyssey's argument.
Notably,
Semanderes'
proposed
value
for
containment ($18,700,000) exceeded the value that
was agreed upon for L & L by the Owner
($17,259,000). This supports L & L's rejection and
specifically its reference to its own payment
breakdown in doing so as Odyssey sought to be paid
more than L & L would receive for the work. L & L's
response reflects the reasonable conclusion that it
was bound by the outer limits of what the City would
pay L & L when agreeing on the amount it would
pay to Odyssey. The Court finds no credible evidence
to support Odyssey's contention that it was misled to
believe that the containment work on the towers was
broken out in L & L's trade payment breakdown
with the City nor does the Court find that the trade
payment breakdown was imposed upon Odyssey by
L & L.13
Progress Payments

A43

Based upon the agreed payment breakdown,
Odyssey was entitled to seek monthly payments.
Section 3 of the Subcontracts addresses payments
and provides, in part, as follows:
Subcontractor shall submit an invoice to
Contractor on a monthly basis for Work
performed during the prior month. The
Subcontractor's invoice shall be based on
an itemized breakdown of the Work scope
as approved by the Contractor. Invoicing
will not be recognized until full
compliance with invoice breakdown
requirements are reasonably fulfilled.
For the purpose of monthly billing, Odyssey filled in
boxes on a spreadsheet for the individual work items
that it completed during that month and submitted
the spreadsheet to L & L. Undisputed Facts, at 3 (¶
19), 7 (¶ 37). The spreadsheets listed all 122 bays
vertically down the left-hand side of the page while
Odyssey's fifteen tasks to be performed were listed
horizontally at the top of the page resulting in a box
for each individual task per
[581 B.R. 770]

A44

bay. Id. at 7 (¶ 36). These spreadsheets did not
provide prices or dollar values for the tasks
performed. Id. at 3 (¶ 21), 7 (¶ 39). The Court finds
that the parties treated the completion of these
spreadsheets as fulfillment of the monthly invoicing
requirement under Section 3 of the Subcontracts.14
Odyssey's spreadsheets were incorporated into L &
L's own documentation to Urbitran Associates, Inc.
("Urbitran"), the City's engineer for the Project, for
approval. Undisputed Facts, at 3 (¶ 20), 5 (¶ 4), 7 (¶
38). After the spreadsheet approvals were settled, L
& L would incorporate the work performed by
Odyssey and approved by Urbitran into its
requisitions to the City for payment. Id. at 7 (¶ 40).
Along with its monthly requisitions, L & L
submitted to the NYCDOT a document entitled
"Payment Requisition Notes..." for each billing
period. Id. at 6 (¶ 21). These notes broke down the
line items of work performed during the billing
period in greater detail, including specific locations
and tasks as well as identification of the
subcontractor performing these tasks. Id. at 6 (¶ 22).
With respect to the line item at issue in this case for
Location 2 Containment, the containment operations
of both Alpha and Odyssey were included as part of
L & L's completion percentage within L & L's

A45

monthly payment requisitions to the City. See L & L
PFC, at ¶ 20; Odyssey Reply to PFC, at ¶ 2. L & L's
requisitions to the City were based upon its trade
payment breakdown. Transcript B, at 52.
Odyssey was paid pursuant to its trade payment
breakdown. Transcript B, at 53. Accordingly, when L
& L received approval by Urbitran of work that
Odyssey sought to invoice for the month, the
approved work would be incorporated into Odyssey's
trade payment breakdown in order to determine the
dollar amounts that would be paid to Odyssey for
that particular month. Transcript B, at 51–53. In
doing so, L & L generated a spreadsheet in the form
of a requisition and a narrative document. See id.
and Exhibit 58. The requisition sheet lists the items
within Odyssey's scope of work, including the
containment operations with a unit cost of
$16,106,800. Exhibit 58. The amounts paid to
Odyssey were to be based on the unit costs that
covered its respective tasks. Undisputed Facts, at 7
(¶ 44). This procedure was followed throughout the
course of the Project. See Exhibit 58. Pursuant to the
credible evidence, this Court finds that Odyssey
never expressed to Earl, as L & L's project manager
in charge of the monthly payment applications, any

A46

confusion with respect to this payment process.
Transcript
[581 B.R. 771]
B, at 43, 53–54.15
Payment Dispute
The parties' relationship began to break down
toward the end of 2007. By this time, Ross Levine
("Levine") had become more involved in the Project
on behalf of L & L following his father's passing in
February of the same year. According to Levine, he
recalls concerns at this time regarding Odyssey's
work progress and timely completion of the Project.
Transcript A, 43–44. Semanderes, however, contends
that he observed the amount of work done by
Odyssey and realized that "some measure of dollars"
was missing. Transcript E, at 29. Based on his
observations and the list of items that remained,
Semanderes directed an analysis to be done to
determine whether there had been underbillings.
Transcript E, at 29–30. This task fell on Kartofilis,
who had been responsible for providing the
spreadsheets of Odyssey's work to L & L for the
purpose of monthly billing. Transcript D, at 52;
Transcript E, at 29–30. The result of Kartofilis'

A47

analysis was a demand letter sent by Odyssey to L &
L.
By letter dated February 7, 2008, Odyssey
demanded payment in the total amount of
$1,397,265.93, which it claimed was due since
December 31, 2007. Undisputed Facts, at 3 (¶ 27), 8
(¶ 67). In the letter, Odyssey asserted that it
analyzed the past billings for the first three
Subcontracts (alleged to be substantially complete)
as well as change order work and determined that
there were underbillings. See Exhibit 34. In
response, L & L, through Earl, sent an email dated
February 12, 2008, stating that additional
information would be required to assess Odyssey's
claims. Exhibit 35.
Odyssey responded by letter dated February 25,
2008. Exhibit 36. Due to an error discovered in
Odyssey's first set of calculations, the total amount
sought was reduced to $1,302,969.32. The
attachments to the letter were intended to provide L
& L with the information Odyssey relied upon in
calculating these amounts. Kartofilis explained his
calculations as follows:
The amounts for Odyssey's claim were
ascertained by Odyssey as of December

A48

31, 2007, on a subcontract by subcontract
basis, by taking the amounts of each
subcontract and deducting the amounts
for the remaining work, using the dollar
amounts allocated by L & L Painting for
those items in the "translations" that L &
L Painting had provided to Odyssey
purporting to further breakdown of [sic]
Odyssey contract price. Based on the
foregoing, Odyssey sent its own semi-final
invoices to L & L Painting in February
2008 for payment. Each semi-final invoice
included only work that had been
completed and approved by the NYCDOT.
Exhibit R111, at ¶ 50 (internal citations and footnote
omitted).
Notably, Odyssey's "semi-final invoices" based upon
individual Subcontracts were not consistent with the
monthly invoicing procedure that had been used
throughout the course of the Project. The difficulty
in reconciling Odyssey's claims with the invoicing
procedure is reflected in L & L's response. Therein,
Earl cited to the payment breakdown in place and
sought
[581 B.R. 772]

A49

identification by panel point and item that Odyssey
believed to have been omitted. Exhibit 37.
Notwithstanding L & L's response, by letter dated
March 25, 2008, ("March 25th Letter") Odyssey
informed L & L that it had substantially completed
the first three Subcontracts in addition to extra work
for which it was not paid. Undisputed Facts, at 8 (¶
54); Exhibit 38.
Upon receipt of Odyssey's initial demand for
payment,
Levine
recalls
commencing
an
investigation. Transcript A, at 44. As he did not have
the necessary first-hand knowledge, he reached out
to Earl for information regarding Odyssey's
approved work. Transcript A, at 44–45. Levine
completed his own analysis, which broke down the
work by Subcontract and deducted the work that
was not complete in a very similar approach to that
of Kartofilis which raised objections by Earl.
Transcript A, 44–45; Exhibit RR; Exhibit 37. Levine
concluded that he could offer approximately
$233,000 to Odyssey, which included payments that
had not yet been received from the City. Transcript
A, at 44–45; Exhibit RR. Earl, however, disagreed
with the overall analysis, and testified that he never
viewed Odyssey's work by individual Subcontracts
but rather as a total scope of work. Transcript C, at

A50

36–37.16 This is consistent with Earl's role in
processing Odyssey's itemized monthly payment
requests which did not break down the work by
Subcontract but rather identified all work to be
completed by Odyssey on a single spreadsheet. At no
point during the course of the Project does it appear
that either L & L or Odyssey tracked Odyssey's
payments on an individual Subcontract basis until
Odyssey made its payment demands in 2008.
Notwithstanding Earl's objection and the invoicing
procedures, Levine provided his analysis to Odyssey
at a meeting held on March 28, 2008, ("March 28th
Meeting")17 in an attempt to work toward a
resolution. Transcript A, at 45–46; Exhibit R111, at
¶ 47. Levine credibly testified that he made an offer
to advance funds to Odyssey consistent with his
analysis. Transcript A, at 45–46; Exhibit RR.
Semanderes, however, recollects the meeting
differently. Semanderes asserts that Levine actually
conceded that L & L owed Odyssey $741,678.
Trancript E, at 31–33. Semanderes relies upon his
handwritten notes in support of this contention.
Transcript E, at 31–33; Exhibit TT.18 Semanderes'
recollection of the meeting, however, differs from
that of Kartofilis. Exhibit R111, at ¶ 47. The Court
does not find Semanderes' notes to be convincing

A51

evidence of such an admission by L & L. The purpose
of the March 28th Meeting was to come to a
resolution. This is consistent with Levine's
characterization of his own analysis as a document
subject to discussion, not a post-completion audit.
Transcript D, at 11. Regardless of the amounts
discussed at this meeting, as Semanderes relied
upon Kartofilis' calculation that approximately $1.3
[581 B.R. 773]
million was owed, and it is clear that L & L did not
concede to that amount, the March 28th Meeting
concluded without resolution. Transcript E, at 33–
34.
By letter dated April 1, 2008 ("April 1st Letter"),
Odyssey stated that it was terminating its four
subcontracts with L & L as follows:
Please
be
advised
that
Odyssey
Contracting Corp. hereby terminates its
four subcontracts with L & L Painting
Corp....due to L & L Painting Corp.'s
breach by, inter alia, failing to make full
and timely payments to Odyssey
Contracting Corp. for work performed.
Notwithstanding the fact that the

A52

termination of the four subcontracts is
effective
immediately,
Odyssey
Contracting Corp. will remove its
equipment and materials from the site
after completion of the punch-list work on
subcontracts I, IIA, IIB, and III.
Exhibit 40. Notably, there was no mention of any
intention to continue work on the fourth
Subcontract, and this letter was never retracted. See
Exhibit 61, at 100–102. The April 1st Letter further
provided that the outstanding payments would be
identified in a subsequent letter from counsel.
Exhibit 40.
Counsel's letter immediately followed. By letter
dated April 2, 2008 ("April 2nd Letter"), Odyssey
demanded $5,980,657 for contract work, change
order work, retainage, shop steward charges, extra
work, and insurance premiums. Undisputed Facts,
at 4 (¶ 31), 9 (¶ 72); Exhibit 41. Unlike the prior
demands, the April 2nd Letter sought amounts
allegedly owed on all four contracts as well as the
related retainage. The amount sought for contract
work and change order work totaled $1,283,152.51
and the amount sought for retainage totaled
$1,609,644.88. Exhibit 41.

A53

On April 7, 2008, the parties held a meeting;
however, Odyssey did not retract the April 1st
Letter. Undisputed Facts, at 4 (¶ 35), 9 (¶ 76). The
following day, by letter dated April 8, 2008, ("April
8th Letter") L & L denied Odyssey's claims for
payment, declared Odyssey in breach of its
obligations, and ordered Odyssey off of the Project
site. Id. at 4 (¶ 36), 9 (¶ 77). Odyssey's work on the
Project concluded in the early part of April 2008. Id.
at 3 (¶ 26), 8 (¶ 65). It is undisputed that the
containment work on two of the four towers was
incomplete; further, Odyssey does not contend that it
substantially completed Subcontract 4. Id. at 4 (¶
33), 5 (¶ 40). L & L presented credible evidence in
support of its contention that, up to the time of
termination, monthly progress payments were made
to Odyssey in accordance with the payment
breakdown agreed upon by the parties. See
Transcript C, at 97–135; Transcript D, at 6–12;
Exhibits R 308–312.
Retainage
On this Project, NYCDOT withheld retainage in the
amount of five percent from monthly payment
applications. Transcript B, at 56–57. Similarly,
retainage was withheld from Odyssey. Transcript B,

A54

at 57.19 In June 2006, Odyssey sent a letter to L & L
requesting that L & L explore a way to make use of
the retainages which it characterized as a "dormant
asset." Exhibit JJ. Odyssey suggested that the
retainage be deposited into an interest bearing
account or that collateral be placed with the Owner
in order to have cash released. Id. Odyssey's request
was met with a verbal response rejecting the
request. Transcript E, at 36–37. It is undisputed
that L & L did not release any retainage to Odyssey.
Undisputed Facts, at 8 (¶ 63). However, it is also
undisputed that during the course of
[581 B.R. 774]
the Project L & L substituted bonds for its retainage
in the approximate amount of $7,423,000. Transcript
D, at 176–77; Exhibits R313 and R315.
Project Completion
Ultimately, L & L sent correspondence to the
NYCDOT, requesting substantial completion of the
Project be granted. Exhibit 70. A substantial
completion inspection was held in July 2009, and
Urbitran advised that a punch list was generated in
accordance with that inspection. Exhibit 44;
Transcript B, at 59–60. L & L received final

A55

acceptance of the Project in 2012. Exhibits 48–50;
Transcript B, at 61–62.
Conclusions of Law
As the purpose of the trial was to determine which
entity is the breaching party, this Court limits its
analysis accordingly. The Amended Complaint
alleges that Odyssey wrongfully terminated and/or
abandoned its work at the Project, constituting a
breach of the Subcontracts. Exhibit 8, at ¶ 16. To the
contrary, Odyssey alleges that it was L & L that
breached the Subcontracts by failing to make full
and timely payments to Odyssey, and further asserts
that the first three Subcontracts were substantially
completed. Exhibit 9, at ¶¶ 43–45, 49–50. It is
Odyssey's position that it did not breach the
Subcontracts by termination or abandonment as L &
L's material breach relieved Odyssey of any
continuing obligation to perform work on the Project.
See Odyssey Post–Trial Brief, at 21. Therefore, the
heart of the parties' dispute is whether Odyssey was
appropriately paid by L & L, and this is where the
Court's analysis begins.
Odyssey's allegations of underpayment, generally,
and
achieving
substantial
completion
of
Subcontracts one through three, specifically, are

A56

consistent with Odyssey's demands prior to
termination of the Subcontracts. As set forth above,
by its letters dated February 7th and February 25th,
Odyssey asserted that, upon its analysis of the first
three contracts (alleged to be substantially complete)
and change orders, Odyssey determined there to
have been underbillings. Exhibits 34 and 36. In the
March 25th Letter, Odyssey asserts that full
payment for each individual Subcontract is required
upon completion, and the first three Subcontracts
have been substantially completed. Exhibit 38. The
April 1st Letter provided that Odyssey terminated
its Subcontracts due to L & L's breach for, inter alia ,
failing to make full and timely payments. Exhibit 40.
Further analysis was then provided in counsel's
April 2nd Letter, which demanded contract balances
and retainage on the four Subcontracts and change
orders. Exhibit 41.20 Since the time of termination,
however, Odyssey has asserted a more specific basis
for establishing underpayment by L & L. Odyssey
contends that both N.Y. General Municipal Law §
106–b(2)21 and the provisions of the Subcontracts
and Prime Contract require Odyssey's trade
payment breakdown to be identical to that of L & L.
See Odyssey Post–Trial Brief, at
[581 B.R. 775]

A57

7–12. Odyssey contends that by carving out the
tower work under Odyssey's containment operations
L & L failed to comply with the statutory and
contractual mandates resulting in underpayment to
Odyssey. The Court will address each of Odyssey's
arguments herein.22
Substantial Completion
Odyssey characterizes the Subcontracts as four
separate agreements, and it is undisputed that
Odyssey demanded the release of contract balances
and retainages on the ground that Odyssey had
substantially completed Subcontracts one through
three. See Undisputed Facts, at 4 (¶ 32).23 To the
contrary, L & L asserts that the Subcontracts were
not divisible and did not contain their own
substantial completion dates.24 An examination of
the
applicable
contractual
provisions
is
determinative of Odyssey's alleged entitlement to
payment upon substantial completion of individual
Subcontracts.
The Court begins with Odyssey's contention that, as
there is no ambiguity within the four corners of the
Subcontracts, reference to extrinsic evidence is not
permitted. See Debtor's Memorandum of Law
("Odyssey Pretrial Brief," Doc. No. 121), at 2–3.

A58

However, contrary to Odyssey's position, the Court
finds that the unambiguous terms of the
Subcontracts support L & L's contention that the
Subcontracts did not have independent substantial
completion dates. Significantly, the Subcontracts
incorporate the terms and conditions of the Prime
Contract. See Subcontracts, Section 1(b). The Prime
Contract defines "Substantial Completion" as "the
written determination by the Commissioner that the
Work required under this Contract is substantially,
but not entirely, complete" where "Work" is defined
as "all services required to complete the Project in
accordance with the Contract Documents...." See
Prime Contract, Article 2.1.31 and 2.1.33. Further,
these definitions appear to be consistent with the
provision for final payment under the Subcontracts:
Upon complete performance of this
Subcontract by the Subcontractor and
final approval and acceptance of
Subcontractor's Work by the Owner , the
Contractor will make final payment to the
Subcontractor of the balance due to it
under this Subcontract within forty-five
(45)
[581 B.R. 776]

A59

days after full payment for such Work has
been received by the Contractor from the
Owner .
Section 3(c)(emphasis added).25 The Prime Contract
defines "Final Acceptance" as the "final written
acceptance of all of the Work by the
Commissioner...." Article 2.1.17. Thus, Odyssey's
March 25th Letter (Exhibit 38) asserting that "each
subcontract requires full payment when it is
completed" is inconsistent with the applicable
contractual terms, setting forth as prerequisites to
final payment to Odyssey both final acceptance by
the Owner and full payment by the Owner to L & L.
Odyssey failed to establish that these prerequisites
were fulfilled.
L & L has consistently maintained that contract
balances, including retainages, were not due until
substantial completion of all of the work under the
Project pursuant to the relevant defined terms of the
Prime Contract as well as Articles 21 (Retained
Percentage) and 44 (Substantial Completion
Payment). Pursuant to Prime Contract Article 14.2,
when the conditions are met for a determination that
the
work
is
substantially
complete,
the
Commissioner issues a Certificate of Substantial

A60

Completion. Accordingly, L & L contends that
Odyssey could not achieve substantial completion of
individual Subcontracts, which incorporate these
terms of the Prime Contract, and Odyssey had no
right to demand payments in 2008 based upon
substantial completion. In fact, the substantial
completion inspection was not held until July 2009,
well after Odyssey's departure from the Project.
Exhibit 44 (specifically referencing Article 44 of the
Prime Contract which provides for Substantial
Completion Payment).
Citing Article 16 of the Prime Contract, Odyssey
contends that there is an applicable exception. See
Odyssey Pretrial Reply Brief, at 7; Odyssey's Reply
Brief ("Odyssey Post–Trial Reply Brief," Doc. No.
204), at 7–8. Article 16 of the Prime Contract
provides for occupation or use prior to completion as
follows:
16.1 Unless otherwise provided for in the
specifications, the Commissioner may
take over, use, occupy or operate any part
of the Work at any time prior to Final
Acceptance, upon written notification to
the Contractor. The Engineer shall
inspect the part of the Work to be taken

A61

over, used, occupied, or operated, and will
furnish the Contractor with a written
statement of the Work, if any, which
remains to be performed on such part.
The Contractor shall not object to, nor
interfere with, the Commissioner's
decision to exercise the rights granted by
this
article.
In
the
event
the
Commissioner takes over, uses, occupies,
or operates any part of the Work:
16.1.1 the Commissioner shall issue a
written determination of Substantial
Completion with respect to such part of
the Work;
16.1.2 the Contractor shall be relieved of
its absolute obligation to protect such part
of the unfinished Work in accordance with
Article 7;
16.1.3 the Contractor's guarantee on such
part of the Work shall begin on the date of
such use by the City; and;
16.1.4 the Contractor shall be entitled to a
return of so much of the amount retained

A62

in accordance with Article 21 as it relates
to such part of the Work, except so much
thereof as may be retained under Articles
24 and 44.
[581 B.R. 777]
Exhibit 13, at 00116 (emphasis omitted). Odyssey
contends that the testimony of Earl confirms that
steps were taken in accordance with Article 16
establishing that the work under Subcontracts one
through three was determined to be substantially
complete. See Odyssey Post–Trial Reply Brief, at 22.
In fact, Earl denied that the requirements of Article
16 were met instead referring to anniversary
inspections which were conducted under a different
provision of the Prime Contract. Transcript C, at 57–
58, 65–69.
While inspections of work clearly did take place prior
to substantial completion of all of the work, there is
no credible evidence that the inspections were
pursuant to Article 16. Odyssey failed to produce any
evidence that the Commissioner provided written
notification to the Contractor of the intent to take
over, use, occupy or operate any portion of the work
prior to final acceptance triggering the application of
this provision of the Prime Contract. Rather, the

A63

inspections appear to have been initiated at the
request of L & L as opposed to the City. Exhibits AA,
BB, CC. Further, while Odyssey contends that the
requirement of Article 16.1.1 was satisfied by an
email dated February 26, 2008, from Urbitran
regarding the "[i]nventory of remaining work on the
project," the attached spreadsheet referencing
substantially completed work does not appear to be
the Commissioner's written determination of
Substantial Completion. Compare Exhibit X with
Exhibit 44.26
Notably, periodic inspections are addressed
elsewhere within the Prime Contract under Section
39831 Specification for Painting, specifically Part
3.012. Exhibit 13, at 00597. The provision addresses
one year anniversary inspections covering work
completed during the previous 12–month period.
Under the terms of Part 3.012(E), the Contractor is
to be responsible for repairs "for the entire duration
of the project and for one year after substantial
completion of the contract at no additional cost to the
City." However, paragraph E was subsequently
deleted. See Exhibit 73, at AC–8. A Memorandum of
Understanding dated January 14, 2005, clarified the
impact of the deletion of the above-paragraph on the
periodic inspections and the warranty periods.

A64

Exhibit 74. Despite providing for periodic
inspections, a warranty period, and ultimately the
acceptance of a location of work prior to completion
of the entire Project, the memorandum specifically
addresses release of retainage as follows: "[R]elease
of the retainage will start when the last portion of
the project is substantially completed and payment
will be done in accordance with the contract
documents/specifications." Exhibit 74. Accordingly,
even to the extent a certain location would be
considered accepted or even substantially completed,
the memorandum nevertheless reserved the release
of retainage until the end of the Project. While
Odyssey attempts to relate the periodic inspections
to Article 16 (specifically 16.1.4 relating to
retainage), there is no clear correlation. Further,
Odyssey failed to identify any other provision of the
Prime Contract which would entitle it to payment of
contract balances, including retainages, based upon
its substantial completion argument.27
[581 B.R. 778]
In addition, Odyssey's position finds no support in
General Municipal Law § 106–b. The statute
provides as follows: "[w]hen the work or major
portions thereof as contemplated by the terms of the

A65

contract are substantially completed, the contractor
shall submit to the public owner and/or his agent a
requisition for payment of the remaining amount of
the contract balance." General Municipal Law § 106–
b(1) (emphasis added). Accordingly, this governs
substantial completion as between L & L and the
NYCDOT, with reference to the terms of the Prime
Contract.
The statute also addresses payment by the prime
contractor to the subcontractor:
Within seven calendar days of the receipt
of any payment from the public owner,
the contractor shall pay each of his
subcontractors...the proceeds from the
payment representing the value of the
work
performed...by
the
subcontractor...and
reflecting
the
percentage of the subcontractor's work
completed...in the requisition approved by
the owner and based upon the actual
value of the subcontract....
General Municipal Law § 106–b(2). Despite this
derivative entitlement to payment, the subcontractor
is not entirely dependent upon the prime contractor's
requisition for payment of the contract balance:

A66

If the contractor has failed to submit a
requisition for payment of the remaining
amounts of the contract balance within
ninety days of substantial completion as
provided in subdivision one of this
section, then any clause in the
subcontract between the contractor and
the subcontractor...which states that
payment by the contractor to such
subcontractor...is
contingent
upon
payment by the owner to the contractor
shall be deemed invalid.
General Municipal Law § 106–b(2) (emphasis
added).
Notably,
in
addressing
substantial
completion with respect to the subcontractor,
reference is made to substantial completion under
subdivision one as between the owner and prime
contractor and with reference to the contract
between those parties.28
In light of the foregoing, the Court considers
Odyssey's arguments. Odyssey contends that over
$7.5 million in retainage was released to L & L yet
no corresponding retainage payments were made to
Odyssey despite the fact that L & L billed for
approximately 98% of its work under Subcontracts

A67

one through three. See Odyssey Pretrial Brief, at 11.
First, L & L denies
[581 B.R. 779]
that such a "release" occurred and distinguishes its
substitution of bonds enabling it to withdraw
retainage.29 Notably, Odyssey failed to produce any
credible evidence of a release of retainage to L & L
on the basis of substantial completion prior to the
termination of the Subcontracts which would have
triggered any derivative rights to those funds.
Second, L & L asserts that Odyssey is not entitled to
a determination of substantial completion based on
the percentage of progress payment approvals under
Subcontracts one through three, which simply
represent estimates subject to correction in the final
voucher. See Prime Contract, Article 45.3.1 and
Subcontract Section 3(b) (providing that partial
payments are not approvals or acceptances of work).
This Court agrees. Odyssey's contentions are
inconsistent with the unambiguous terms of the
Subcontracts.
Further, even if the unambiguous language of the
Subcontracts did not support this conclusion,
persuasive evidence exists that the Subcontracts
were intended to be treated as part of a single

A68

transaction barring substantial completion of
individual portions of Odyssey's work.30 L & L
asserts, and this Court finds, that where writings
form part of a single transaction and are intended to
effectuate the same purpose, they must be read
together notwithstanding different dates of
execution. See TVT Records v. Island Def Jam Music
Grp. , 412 F.3d 82, 89 (2d Cir. 2005). The
Subcontracts are essentially identical with the
exception of the specific locations of Odyssey's work
on the Project. See Exhibits 23–26. Each Subcontract
is dated March 3, 2004, despite the fact that the
parties executed the Subcontracts on different dates.
The Subcontracts are between the same parties and
for the same purpose, to set forth the agreement of
the parties with respect to Odyssey acting as a
subcontractor on the Project. Each Subcontract
defines the locations of Odyssey's work on the overall
Project. Notably, however, the exhibits to each
Subcontract identifying the portions of work to be
done by Odyssey explicitly provide that "[t]he scope
of work shall include but not be limited to..." the
identified items. See, e.g., Exhibit 23, at 1085. In
addition, the
[581 B.R. 780]

A69

exhibits to the Subcontracts refer to "each phase"
and "work within the scope of that phase." Id. Thus,
the Subcontracts individually reference the existence
of other phases of work to be done by Odyssey
despite the identification of distinct locations on the
bridge under the broad heading Truss and Towers.
The connection is strengthened by the impact of the
parties' amendments to the Subcontracts, swapping
panel points identified in Odyssey's scope of work as
needed from one phase to another and indicating the
parties' overall intention that Odyssey would do all
of the identified work in the Subcontracts. See
Exhibits 23, 24, 28, 29. Accordingly, the Court finds
no support for Odyssey's contention that it was
entitled to payment based upon substantial
completion of individual Subcontracts.
Progress Payments
Odyssey nonetheless contends that L & L breached
the Subcontracts as L & L's underpayments occurred
throughout the course of the Project. See Odyssey
Post–Trial Brief, at 2. Odyssey's allegation is based
on the fact that L & L did not pay Odyssey the same
percentage of completion approved and paid by the
NYCDOT to L & L for containment work done by
Odyssey resulting in systematic underpayment to

A70

Odyssey. See id. at 1–2. Odyssey reasons as follows:
L & L's value for the tower and truss containment
work done exclusively by Odyssey was $17,259,000;
Odyssey's value for the same work was $16,106,800;
Odyssey's value represents 93.3% of L & L's value;
therefore, Odyssey is entitled to 93.3% of each dollar
L & L receives for containment work which
represents work done by Odyssey. See Pretrial
Statement, at 23–24.31
In response, L & L contends that Odyssey's progress
payments were governed by its own completion
percentage, not that of L & L. See Pretrial
Statement, at 20. Per L & L, the difference is a
result of the parties' individual trade payment
breakdowns as follows: the bridge's four towers were
broken out as a separate component for Odyssey
such that they had to be completed before Odyssey
was entitled to the related payments whereas, for L
& L, the work on the towers was pro-rated across the
bridge's sections. See id. at 19. Thus, different
percentages of completion result.
Odyssey disputes that such a variance is statutorily
or contractually permissible. It is Odyssey's position
that General Municipal Law § 106–b(2) requires that
L & L and Odyssey have identical trade payment

A71

breakdowns. See Odyssey Post–Trial Brief, at 7, 11–
12. Odyssey further contends that
[581 B.R. 781]
the contractual language likewise imposes this
mirror image obligation. See id. at 7–11.32
Accordingly, Odyssey asserts that L & L, by its own
admission, failed to comply with these mandates. See
Odyssey Pretrial Brief, at 17–18.33
Despite Odyssey's contention that "L & L's carve out
was unlawful, and the resulting underpayments
constitute a material breach which authorized
Debtor to terminate the contract,"34 notably absent
from all of the correspondence leading up to
termination is any allegation by Odyssey regarding
the breakout of the towers. Odyssey may contend
that it was previously unaware of the difference in L
& L's trade payment breakdown at the time of
termination; however, even assuming that is the
case, Odyssey's pre-termination demands are
curious. Odyssey failed to base its claims on the
actual requisitions by pointing to an error,
miscalculation, or underbilling. Instead, Odyssey
created its own versions of invoices which do not line
up with the invoicing procedure used throughout the
course of the Project. The contention that L & L

A72

breached the contracts by failing to pay Odyssey in
the mirror image that it was paid did not constitute
the basis for termination but rather appears to be an
after-the-fact attempt to justify Odyssey's allegations
of underbilling. Nonetheless, the Court finds that
Odyssey failed to establish a breach of contract on
this basis.
With respect to General Municipal Law § 106–b(2),
the analysis begins and ends with the language of
the statute, which provides as follows:
Within seven calendar days of the receipt
of any payment from the public owner,
the contractor shall pay each of his
subcontractors...the proceeds from the
payment representing the value of the
work
performed...by
the
subcontractor...and
reflecting
the
percentage of the subcontractor's work
completed...in the requisition approved by
the owner and based upon the actual
value of the subcontract...and less any
retained amount as hereafter described.
Odyssey places significance on the fact that the only
requisitions provided to and approved by the
NYCDOT were those of L & L and thus concludes

A73

that L & L was required to pay Odyssey the same
percentage of completion which it billed and was
paid by the NYCDOT. While Odyssey cites to a
portion of the language of the statute, its argument
fails to account for the express
[581 B.R. 782]
language which bases payment on the actual value
of the applicable subcontract without any apparent
relation to the percentage of completion of the prime
contract. In addition, with respect to the line item at
issue, the work of both Alpha and Odyssey was
reflected in L & L's completion percentage for
containment work at Location 2. Significantly,
Odyssey failed to cite to any applicable New York
case law which interprets the statute in support of
its reading, and this Court is unwilling to interpret
New York General Municipal Law in a way that
New York's courts have not.
Accordingly, this Court finds that General Municipal
Law § 106–b(2) does not expressly mandate that L &
L and Odyssey have identical trade payment
breakdowns resulting in identical percentages of
completion. This conclusion, however, does not end
the inquiry. The Court must determine whether
identical trade payment breakdowns were required

A74

by the terms of the Subcontracts and/or Prime
Contract as Odyssey alleges.
The Court begins with the provisions of the
Subcontracts cited by Odyssey. Section 3(b) of the
Subcontracts provides for partial payments to
Odyssey each month "in an amount equal to 95
percent of the value, computed on the basis of the
prices set forth above, of the quantity of the Work
performed hereunder, as estimated by the Owner or
Owner's Representative...." Odyssey asserts that
Section 3(b) and General Municipal Law § 106–b(2)
are consistent and equates "quantity of the Work"
under Section 3(b) with "the percentage of the
subcontractor's work completed" under the statute.
See Odyssey Post–Trial Reply Brief, at 13. While
Odyssey contends that Section 3(b) of the
Subcontracts mirrors the mandate of General
Municipal Law § 106–b(2), Odyssey's argument
pursuant to Section 3(b) is no more persuasive than
its argument pursuant § 106–b(2), as set forth above.
While the provision refers to the quantity of work
performed as estimated by the Owner, payment is
based on "the value, computed on the basis of the
prices set forth above" as opposed to any reference to
the Prime Contract. Furthermore, earlier in Section
3, addressing the monthly invoices, the Subcontract

A75

provides that "[t]he Subcontractor's invoice shall be
based on an itemized breakdown of the Work scope
as approved by the Contractor." L & L highlights
that the itemized breakdown is as approved by the
Contractor , and based on this provision, L & L
asserts that it was permitted to require a more
detailed itemization for the work on the towers. See
L & L Pretrial Brief, at 17. Based on the foregoing,
the Court is unconvinced that Section 3(b) of the
Subcontracts required the parties to have identical
trade payment breakdowns.
Odyssey also cites to Section 1(b) of the
Subcontracts, which incorporates "[t]he Contract
Documents including all of the terms and conditions
of the Prime Contract" into the Subcontracts.
Further, Section 1(d) of the Subcontracts provides as
follows:
Contractor
shall
be
bound
to
Subcontractor by the terms of this
Subcontract and of the Contract
Documents between the Owner and
Contractor and shall assume toward
Subcontractor all the obligations and
responsibilities that the Owner, by those

A76

Contract Documents, assumes toward
Contractor....
Based on the foregoing, Odyssey cites to provisions
of the Prime Contract which it contends mandate
that Odyssey be paid based upon the same
percentage of completion as L & L, and specifically,
the same pre-approved percentage per bay. See
Odyssey Post–Trial Brief, at 9.
Odyssey begins with Article
specifically addresses payment

17.9.1,

which

[581 B.R. 783]
to subcontractors, as follows: "The agreement
between the Contractor and its Subcontractors shall
contain the same terms and conditions as to method
of payment for Work, labor and materials, and as to
retained percentages, as are contained in this
Contract." Exhibit 13, at 00117 (emphasis omitted).
At this point, Odyssey's interpretation of the
contractual language diverges from L & L's
interpretation, specifically with regard to the phrase
"method of payment." Interpretation of contractual
language requires a court to discern the parties'
intent based upon the memorialization of their
intent in their writing; further, the language is to be

A77

interpreted to render contractual provisions
consistent with one another. See Ocwen Loan
Servicing, LLC v. ResCap Liquidating Trust (In re
Residential Capital, LLC ), 533 B.R. 379, 399
(Bankr.S.D.N.Y. 2015).
According to Odyssey, the applicable "method of
payment" is set forth in Article 41 and in the
Specification for Lead Paint Removal at Section
39832. Odyssey Post–Trial Brief, at 7. Article 41
addresses L & L's breakdown of its bid price as
follows:
41.1 ...Contractor shall submit to the
Resident Engineer a breakdown of its bid
price, or of lump sums bid for items of the
Contract, showing the various operations
to be performed under the Contract...and
the value of each of such operations, the
total of such items to equal the lump sum
price bid. Said breakdown must be
approved in writing by the Resident
Engineer.
41.2 No partial payment will be approved
until the Contractor submits a bid
breakdown that is acceptable to the

A78

Resident Engineer.
41.3 The Contractor shall also submit
such other information relating to the bid
breakdown as directed by the Resident
Engineer. Thereafter, the breakdown may
be used only for checking the Contractor's
applications
for
partial
payments
hereunder, but shall not be binding upon
the City, the Commissioner, or the
Engineer for any purpose whatsoever.
Exhibit 13, at 00144–45 (emphasis omitted).
Accordingly, L & L did provide a breakdown of its
bid in compliance with this Article. See Exhibit K.
Odyssey further contends that the precise method of
payment for containment work is set forth in Section
39832, the Specification for Lead Paint Removal,
under the heading Basis of Payment. Odyssey Post–
Trial Brief, at 8. Under subsection D (entitled
Containment System), reference is made to progress
payments:
Progress payments will be made. They
will be based upon percentage of
completion. The percentage of the total
containment cost(s) represented by each

A79

section of the bridge (e.g., each span) will
be established in advance, and the lump
sum price(s) divided accordingly.
Exhibit 13, at 00664. Odyssey concludes from this
provision that (1) the containment work was to be
paid based upon percentage of completion and (2) the
containment costs were to be allocated evenly per
span or bay without any carve out of the towers.
Odyssey Post–Trial Brief, at 9. Thus, Odyssey
asserts that L & L's trade payment breakdown
provided a value per span of $141,467.21 without
any distinction between the tower containment work
versus truss containment work. See id.
Odyssey contends that the terms of Article 41 and
Specification Section 39832, subsection 5(D)(4),
establish the applicable "method of payment" for
containment under Article 17.9.1, which is expressly
incorporated into Odyssey's Subcontracts. See id.
Accordingly, Odyssey asserts that it should have
been paid in like-fashion in the amount of
$132,022.94 per bay (i.e. 93.3%
[581 B.R. 784]
of $141,467.21), with no carve-out of the towers. See
id. Curiously, as Odyssey acknowledged that it

A80

examined all of the Prime Contract documents at the
time of entering into the Subcontracts, there is no
evidence that Odyssey believed this provision
applied as it now contends while negotiating its
trade payment breakdown with L & L.35
L & L disputes Odyssey's broad interpretation of
"method of payment" and takes a more narrow view
guided by the same terminology used elsewhere in
the Prime Contract. Specifically, L & L points to
Articles 25 and 26 regarding the methods of
payment for extra or changed work as, for example,
unit price, fixed price, cost plus a percentage, as
opposed to payment amounts that are subsequently
determined. See L & L Post–Trial Brief, at 25. Upon
review of Article 26, L & L's argument is persuasive
as this provides for consistent interpretation of the
same terminology within the Prime Contract. See
Exhibit 13, at 00129 (providing pursuant to Article
26.5 that "[w]here the Contractor and the
Commissioner can agree upon another method of
payment for Extra Work...such method...may, at the
option of the Commissioner, be substituted for the
cost plus a percentage method....). Accordingly, L &
L contends that there was compliance with Article
17.9.1 as both the Prime Contract and Subcontracts
contained the unit price method of payment. In

A81

addition, Article 17.9.1 refers to "method of payment
for Work" and "Work" is a defined term, meaning "all
services required to complete the Project...." Article
2.1.33. Therefore, L & L contends that the method of
payment is used in reference to all of the "Work" as
opposed to specific line items contrary to Odyssey's
view. See Post–Trial Reply Brief by Plaintiff L & L
Painting Co., Inc. and Additional Defendant on the
Counterclaim Federal Insurance Company , (Doc.
No. 200), at 9–10.
Based upon the foregoing, the Court finds that the
meaning of "method of payment" is best determined
from its use within the Prime Contract itself. This is
consistent with the principle that the meaning of a
phrase used in one sense will generally be given the
same meaning throughout the contract. See Two
Farms Inc. v. Greenwich Ins. Co. , 628 Fed.Appx.
802, 805 (2d Cir. 2015). If the intention was to
require an identical bid breakdown, then it would
seem appropriate to mirror the language of Article
41 rather than require the same terms and
conditions as to method of payment. Odyssey points
to no reason why the phrase should not be
interpreted consistently throughout the Prime
Contract.

A82

Furthermore,
the
Court
finds
Odyssey's
interpretation of Specification 39832 unpersuasive.
While the language provides for each span of the
bridge to be allocated a percentage of the total
containment
[581 B.R. 785]
costs, the language in no way mandates that each
span be designated an equal value. Despite the fact
that L & L's trade payment breakdown ultimately
provided a value per span of $141,467.21, there was
a time when a change to this payment breakdown
was suggested by the City. The City's consideration
of "a more accurate breakdown in accordance with
the individual height of each section of the upper
truss" suggests that while a value had to be assigned
for the purpose of progress payments it was not
mandated to be equally divided. Exhibit M.
Accordingly, the Court finds that the Prime Contract
did not mandate that each span of the bridge be
assigned an equal value.
Odyssey failed to establish that any provision of the
Subcontracts or Prime Contract required the parties
to have identical payment breakdowns. Accordingly,
the Court finds that the contractual language did not
prohibit the carve-out of the tower work for Odyssey,

A83

and Odyssey cannot establish a breach of contract
pursuant to that theory.
Furthermore, to the extent Odyssey contends that L
& L's own records demonstrate underpayments to
Odyssey in the minimum amount of $1,102,964, that
argument too is unconvincing. See Odyssey PFC, at
¶ 22 (citing to Exhibit TTTTT). Odyssey seeks to
demonstrate underpayments on an individual
Subcontract basis by piecing information together
from various sources. However, throughout the
course of the Project, payments were not made on an
individual Subcontract basis but rather on the total
scope of work pursuant to the established invoicing
procedure rendering such a comparison difficult.36
Further, Odyssey's calculation largely relies on
Levine's analysis (Exhibit RR) which was created for
the purpose of the March 28th Meeting. Both parties
have acknowledged errors in the document, and the
Court finds that the analysis is unreliable to
establish amounts owing to Odyssey. This is
consistent with Levine's characterization of his own
analysis as a document subject to discussion, not a
post-completion audit. Transcript D, at 11. In
addition, Odyssey seeks to rely on an inexact amount
used as a comparison in L & L's brief to establish the
amount of work allegedly in place under Subcontract

A84

4. The Court finds the most reliable documents
demonstrating Odyssey's entitlement to payment are
its spreadsheets identifying tasks completed
throughout the course of the Project and the
corresponding requisitions applying Odyssey's trade
payment breakdown. Further, pursuant to Section 3
of the Subcontracts, invoicing would not be
recognized unless in compliance with the invoice
breakdown requirements. Odyssey failed to
demonstrate underpayment based on the established
procedure for invoicing at the time it demanded
payment from L & L and subsequently sent its
termination letter on April 1, 2008, based on those
unsubstantiated demands.37 Furthermore, L & L
presented credible evidence in support of its
contention that, up to the time
[581 B.R. 786]
of termination, monthly progress payments were
made to Odyssey in accordance with the payment
breakdown agreed upon by the parties. See
Transcript C, at 97–135; Transcript D, at 6–12;
Exhibits R 308–312.
Release or Withdrawal of Retainages

A85

While Odyssey contends that it did not terminate the
Subcontracts based on L & L's failure to pay
retainages, it nonetheless contends that it was
entitled to retainages. See Odyssey Post–Trial Reply
Brief, at 5–12. Prior to the termination of the
Subcontracts, there is no credible evidence
indicating that retainages were released on the basis
of substantial completion or on the basis of work
performed at all. Specifically, under the terms of the
Prime Contract, Odyssey failed to demonstrate that
the release of retainage was based upon substantial
completion of any part of the work pursuant to
Article 16, as set forth more fully above, or all of the
work pursuant to Article 44. No evidence connects
the withdrawal of retainages to a certificate of
substantial completion by the Commissioner, a
substantial completion requisition by L & L, or the
issuance of a voucher calling for payment to L & L.
Rather, L & L substituted bonds in exchange for cash
retainages held by the City. This distinction is of
significance as General Municipal Law § 106–b
addresses payments whereas the withdrawal of
retained percentages is governed by an entirely
separate section, General Municipal Law § 106.
Therefore, the latter statute governs in this instance.
Section 106 provides, in pertinent part, as follows:

A86

[T]he contractor may, from time to time,
withdraw the whole or any portion of the
amount retained from payments to the
contractor pursuant to the terms of the
contract, upon depositing with the fiscal
officer of the political subdivision or
district therein...(1) bonds or notes of the
United States of America, or obligations,
the payment of which is guaranteed by
the United States of America, or (2) bonds
or notes of the state of New York, or (3)
bonds of any political subdivision in the
state of New York, of a market value
equal to the amount so withdrawn.
It is undisputed that L & L availed itself of this
opportunity during the course of the Project.
Notably, the statute does not speak in terms of
payment for work performed. Thus, L & L asserts
that, as this was not a release of retainage pursuant
to § 106–b, but rather a substitution of one form of
collateral for another under § 106, Odyssey was not
entitled to be paid from the funds withdrawn. See L
& L Post–Trial Brief, at 10–11. The Court agrees. L
& L's substitution of bonds for cash retainages did
not create payment rights for Odyssey.

A87

Odyssey counters that it had an absolute right to
withdraw cash retainages under the statute which L
& L unjustifiably denied. Specifically, Odyssey
contends that it made a formal request to L & L by
letter dated June 1, 2006. See Odyssey Post–Trial
Reply Brief, at 6. Within the letter, Odyssey observes
that a substantial amount of money is tied up in
retainage, and Odyssey sought to convert a dormant
asset into a productive asset. See Exhibit JJ.
Further, Odyssey requested that L & L "explore with
the owner ways and means to get this done." Id.
Odyssey suggested depositing the retainage into an
interest bearing account or substituting bonds as
collateral. Id. The letter does not read as a "demand"
or a tender of securities but rather an inquiry.
Nonetheless, Odyssey asserts that L & L's denial
violated General Municipal Law § 106.
Odyssey cites to no binding or persuasive authority
in support of its contention that the statute provides
a subcontractor with an absolute right to provide
bonds in
[581 B.R. 787]
exchange for the withdrawal of retainage. Odyssey's
only alleged support for its position that its request
could not be refused are opinions of the New York

A88

State Comptroller and New York Attorney General,
both from 1963. Notably, however, the citation to the
Comptroller's opinion addresses the refusal of a
political subdivision and the citation to the Attorney
General's opinion addresses the refusal of a village.
Neither the quotations within Odyssey's brief nor
the express language of the statute address a
subcontractor's right to withdraw retainage nor the
effect of the prime contractor's withdrawal of
retainage on the subcontractor.
To the extent Odyssey cites to Fed. Ins. Co. v. Cnty.
of Westchester , 921 F.Supp. 1136 (S.D.N.Y. 1996), in
support of its contention that L & L misappropriated
Odyssey's interest, the case does not support
Odyssey's position. The case cites to the language of
§ 106 with respect to the responsibility of a fiscal
officer of a political subdivision or district to collect
interest and income on retainage obligations and pay
the same, when and as collected, to the contractor.
Id. at 1140. This case provides no support for
Odyssey's contention that L & L misappropriated
monies due to Odyssey. Odyssey has not established
that amounts were due Odyssey based upon L & L's
substitution of bonds for retainage nor has Odyssey
established that it had an absolute right to withdraw
retainage.

A89

Breach and Termination
Odyssey has maintained throughout this action that
it had no continuing duty to perform under the
Subcontracts as L & L's failure to properly pay
constituted a material breach relieving Odyssey of
any further contractual obligations. See Odyssey
Post–Trial Brief, at 21.38 However, as set forth
above, Odyssey failed to establish that L & L
breached by underpaying Odyssey. To the contrary,
L & L produced credible evidence that it paid
Odyssey pursuant to the agreed-upon payment
breakdown. Accordingly, the Court must address the
impact of Odyssey's April 1st Letter, which provides,
in pertinent part, as follows:
Please
be
advised
that
Odyssey
Contracting Corp. hereby terminates its
four subcontracts with L & L Painting
Corp.... due to L & L Painting Corp.'s
breach by, inter alia, failing to make full
and timely payments to Odyssey
Contracting Corp. for work performed.
Notwithstanding the fact that the
termination of the four subcontracts is
effective
immediately,
Odyssey
Contracting Corp. will remove its

A90

equipment and materials from the site
after completion of the punch-list work on
subcontracts I, IIA, IIB and III.
Exhibit 40. Significantly, while providing for some
continuation of work despite termination, the letter
explicitly terminates the fourth Subcontract without
any express intent to continue work on that
Subcontract. This letter was never retracted. See
Exhibit 61, at 100–102; Transcript A, at 50–51.39
The Court finds the statement was a positive and
unequivocal proclamation of Odyssey's intention
with respect to the majority of its remaining scope of
work on the Project regardless of whether Odyssey
[581 B.R. 788]
may have continued some work on the Project after
the April 1st Letter.40 Odyssey failed to produce any
credible evidence that the statement was withdrawn
by its words or conduct. Even if the Court accepted
Odyssey's characterization of its April 1st Letter as a
"wake-up call" or negotiation tactic (Exhibit 61, at
100–102), by conditioning its future performance on
unjustified payment demands, the threat of
nonperformance constituted a repudiation of the
contract.41 See Mometal Structures, Inc. v. T.A.
Ahern Contractors Corp. , No. 09-CV-2791(MKB),

A91

2013 WL 764717, at *8, 2013 WL 764717, at *7–8,
2013 U.S. Dist. LEXIS 27797 (E.D.N.Y. Feb. 28,
2013) (finding subcontractor liable for breach of
contract for its repudiation of the subcontract
despite the fact that it did not cease performance at
any point prior to contractor's termination of the
subcontract).
"[A] repudiation discharges the nonrepudiating
party's obligations to render performance in the
future...." See Computer Possibilities Unlimited, Inc.
v. Mobil Oil Corp. , 301 A.D.2d 70, 747 N.Y.S.2d 468,
475 (2002). Thus, the repudiation by Odyssey would
render even a subsequent wrongful termination of
the Subcontracts by L & L non-actionable as a
breach of contract. Id. at 476. However, the question
of who terminated the agreements now appears to be
a non-issue. Odyssey has taken the position that it
terminated the Subcontracts.42 The Court finds that
this is consistent with the credible evidence.
Therefore, based upon the foregoing, Odyssey
breached and terminated the Subcontracts with L &
L.
Conclusion
Based upon the foregoing, Odyssey failed to
establish that L & L breached the Subcontracts by

A92

underpaying Odyssey. Rather, it was Odyssey that
breached the Subcontracts by making unjustifiable
payment demands and terminating the Subcontracts
based on those demands. The
[581 B.R. 789]
parties, having agreed to limit the issue at trial to a
determination of which party breached, shall resolve
this adversary proceeding and the related Objection
to Claim in accordance with the Stipulation and
Order entered September 13, 2017.43 An Order will
be entered consistent with this Memorandum
Opinion.
-------Notes:
L & L and Federal are commonly referred to
collectively as L & L within the parties' filings and
are jointly represented in this litigation.
1

See Case No. 15–22330, Doc. No. 156. Unless
otherwise stated, citations to document numbers
refer to filings in the adversary proceeding.
2

The Court's citation to trial transcripts is
consistent with the parties' agreement (Doc. No. 191)
3

A93

as follows: Transcript A: 10/2/17 (morning session);
Transcript B: 10/2/17 (afternoon session); Transcript
C: 10/3/17; Transcript D: 10/4/17; Transcript E:
10/5/17.
Alvin Levine passed away in February 2007, prior
to the commencement of this litigation. Transcript A,
at 42–43.
4

NYCDOT is also referred to by the parties as the
City or Owner.
5

See Proposed Findings of Fact and Proposed
Conclusions of Law by Plaintiff L & L Painting Co.,
Inc. and Additional Defendant on the Counterclaim
Federal Insurance Company , ("L & L PFC," Doc. No.
192), at ¶ 7; Odyssey's Reply to L & L's Proposed
Findings of Fact and Conclusions of Law ("Odyssey
Reply to PFC," Doc. No. 205), at ¶ 1, identifying
proposed facts that are not disputed by Odyssey. The
Court will only cite to the parties' proposed findings
of fact to support a finding where the fact alleged is
undisputed.
6

The parties dispute whether the Subcontracts
represent four separate agreements or one
indivisible agreement. The Court's reference to the
documents either as Subcontracts in plural form or
7

A94

as individual documents, for example Subcontract 4,
is not intended as a determination that the
agreements are separate but rather for ease of
reference.
Ultimately, however, no payment and performance
bonds were provided on the third and fourth
Subcontracts. Undisputed Facts, at 5 (¶ 11).
8

The parties agree on this point. See Odyssey Reply
to PFC, at 13 nn. 3–4; Post–Trial Brief by Plaintiff L
& L Painting Co., Inc. and Additional Defendant on
the Counterclaim Federal Insurance Company and in
Support of their Motion under Fed.R.Civ.P. 52 ("L &
L Post–Trial Brief," Doc. No. 193), at 7.
9

The Subcontracts are marked as Exhibits 23–26.
As the contents are mostly identical, reference can
be made to any one of these exhibits unless
otherwise noted. After these agreements were
drafted, the work under one Subcontract was
modified, increasing the value of that Subcontract
while, correspondingly, the work to be performed
under another Subcontract was modified, decreasing
the value of that Subcontract. Exhibits 23, 24, 28,
29. The parties commonly refer to the individual
documents as Subcontracts 1–4 or I–IV. Due to the
amendments, two of the Subcontracts are also
10

A95

referred to at times as Subcontract 1 & 2A and
Subcontract 2B, respectively.
The Court notes that this amount represents a
significant increase from L & L's initial proposal to
Odyssey of $13,243,520 for containment with the
break out of the tower work resulting in a value of
$10,594,816 for the truss work. Exhibit R285.
Ultimately, Odyssey was able to negotiate with L &
L to obtain a value of $13,529,712 for the truss work
alone, an amount which exceeded L & L's initial
proposal for all of the containment work, including
the towers. Exhibit 58.
11

Notably, Odyssey limits its argument in favor of
identical payment breakdowns to the contention that
the towers should not have been broken out as
separate pay items for Odyssey when the same was
not done for L & L. Odyssey takes no issue, however,
with the fact that L & L approved a greater
percentage of the total value of Odyssey's contract
for the preliminary containment operation than was
permitted by the NYCDOT for L & L with respect to
the same work. Exhibit R316; Transcript D, at 19–
20. In the event L & L and Odyssey would have
reached an agreement that did not break out the
tower work, it is unknown how that may have
impacted Odyssey's ability to negotiate the same
12

A96

substantial amount for containment. As Semanderes
testified, it was to Odyssey's benefit to have more
value allocated to this preliminary operation.
In its post-trial brief, Odyssey contends that the
Court should draw an adverse inference against L &
L due to L & L's failure to call Anthony Maracic
("Maracic"), a vice-president of L & L, as a witness.
See Odyssey's Post–Trial Brief ("Odyssey Post–Trial
Brief," Doc. No. 197), at 16. In support, Odyssey
asserts that Semanderes testified that Maracic
rejected Semanderes' proposed breakdown stating
"well we have a breakdown. That's it you know." Id.
However, upon review of the cited testimony,
Semanderes asserted that he provided a schedule of
values to Ted Kartofilis ("Kartofilis"), of Odyssey, to
give to Maracic and further regarding "the response
from L & L " he stated "[t]hey didn't accept it. They
said well we got a breakdown. That's it, you know."
Transcript E, at 25 (emphasis added). The cited
testimony does not state that Maracic responded or
that L & L's response set forth that its payment
breakdown also carved out the tower work. To the
extent the "understanding" of Kartofilis is cited, no
basis for his understanding was ever established and
he testified that he had no involvement in the
negotiation of the schedule of values. Transcript D,
13

A97

at 55 and 69–70. Also, as set forth above, the Court
finds that the credible testimony with respect to
Exhibit G supports only a finding that the parties'
payment breakdowns were similar , not necessarily
identical. L & L contends that it had no reason to
call Maracic as it believed that Odyssey failed to
meet its burden and further that, having been
deposed, there is no basis for concluding that his live
testimony would have been non-cumulative. See L &
L Painting Co., Inc.'s and Federal Insurance
Company's Reply to Odyssey's Proposed Findings of
Fact and Conclusions of Law ("L & L Reply to PFC,"
Doc. No. 201), at 13. This Court agrees and finds no
basis for an adverse inference. See Bohm v. Horsley
Co. (In re Groggel ), 333 B.R. 261, 303–306
(Bankr.W.D.Pa. 2005).
It appears that Odyssey concedes to this as well.
See Exhibit 62, at ¶¶ 7,8, and 10. See also Debtor's
Memorandum of Law in Reply ("Odyssey Pretrial
Reply Brief," Doc. No. 137), at 16 ("As required by
the subcontracts, the Debtor prepared and submitted
monthly invoices to Plaintiff. The invoices did not
include the specific amounts owed; instead, they
were spreadsheets, breaking down and identifying
work completed and approved for payment.").
Despite the further directive under Section 3
14

A98

requiring that Billing Breakdown Form A.I.A. G702–
G703 be attached to the monthly invoices, it is
undisputed that the parties did not comply with this
additional requirement. Transcript B, at 64–68.
Odyssey suggests that it was L & L that deviated
from this particular requirement in an effort to
control the payment process; however, there is
insufficient evidence to convince the Court of this
point. Significantly, there was no evidence of any
attempt by Odyssey to use the form, any rejection of
the form by L & L, or any dispute prior to this
litigation on this basis to the procedure the parties
used since the inception of the Project. Further, the
use of the form was to be an attachment to the
Subcontractor's invoice not in place of the invoice
"based on an itemized breakdown of the Work scope
as approved by the Contractor." See Subcontracts,
Section 3.
The testimony of Kartofilis regarding nonmatching payments is not credible. While Kartofilis
claims that he advised Earl that multiple payments
received by Odyssey did not match its requisitions,
there is no writing to corroborate the testimony and
it is difficult to imagine that Odyssey would not
follow-up in an attempt to resolve such an important
concern. As Kartofilis describes it, he raised the
15

A99

issue to Earl, Earl said he had no control over what
the office did once his paperwork was done, and that
was the end of the issue. Transcript D, at 125–29.
The Court notes that Levine's testimony regarding
the invoicing procedures was at times unclear
indicating his lack of involvement in the process
throughout the course of the Project. Earl, as the
project manager, provided more coherent testimony
on this subject.
16

Within the testimony, the parties at times seem to
mistakenly refer to the date of the meeting as March
27th; however, the parties appear to be referring to
the same meeting.
17

Although the Transcript provides that the writing
on the top of the exhibit reads 3/18/08, Exhibit TT
appears to read 3/28/08. Further, Odyssey's proposed
findings of fact reflect the meeting referred to is the
March 28th Meeting. See Proposed Findings of Fact
and Conclusions of Law ("Odyssey PFC," Doc. No.
196), at ¶ 28.
18

As no payment and performance bonds were
provided on Subcontracts 3 and 4, L & L took
additional retainage of 5% as permitted by statute.
Undisputed Facts, at 5 (¶ 11).
19

A100

The April 2nd Letter also demanded payment for
shop steward charges, extra work, and additional
insurance. In the previous letter dated March 25,
2008, Odyssey also asserted that L & L owed
Odyssey for funds expended on job stewards and
additional insurance policies, as well as other
miscellaneous costs attributable to L & L's
unspecified actions or lack thereof. Exhibit 38. The
State Court dismissed Odyssey's claims for shop
steward fees and additional insurance premiums.
See Exhibit 5, at 17–19. Subsequently, in its
Summary Judgment Decision, the State Court
determined that Odyssey could not pursue its claims
for extra work following a fire on the bridge or for
delay damages. Exhibit 11, at 16–25. Thus, those
matters have been resolved and will not be revisited.
20

The Court notes that the parties cite to the current
version of the statute.
21

The parties' Subcontracts are governed by the
laws of the State of New York. See Subcontracts, at
Section 26.
22

Odyssey maintains, however, that it never
prematurely demanded retainages and specifically
did not demand retainages prior to termination. See
Odyssey Reply to PFC, at 14. In Odyssey's pre23

A101

termination letters, Odyssey characterized the first
three Subcontracts as substantially complete;
however, no demand was made for retainage.
Exhibits 34, 36, and 38. The April 1st Letter set
forth Odyssey's termination of the Subcontracts
followed by counsel's April 2nd Letter seeking
retainages. Exhibits 40 & 41.
Since the time this case was removed to this
Court, the parties have clearly set forth their dispute
regarding whether the Subcontracts constitute four
separate agreements or whether they are to be read
together as one indivisible agreement. Initially, the
parties characterized the determination of this issue
to be of great significance. See Pretrial Statement
("Pretrial Statement," Doc. No. 120), at 24 and
Memorandum of Law on Behalf of L & L Painting
Co. Inc., and Federal Insurance Company in Support
of Points to be Presented at the September 13, 2017
Pre–Trial Conference (Doc. No. 161–2), at 2.
However, the parties' post-trial briefs clearly state
that each believes it can nonetheless succeed on the
issue of breach regardless of the Court's
determination of whether the Subcontracts are
separate or indivisible. See Odyssey Post–Trial Brief,
at 4 (stating that the determination is immaterial to
the issue of breach and primarily goes to the issue of
24

A102

substantial completion and damages); L & L Post–
Trial Brief, at 7–8 (stating that even if there were
four separate contracts, Odyssey's demands would
nonetheless be unfounded).
Even if these terms created an inconsistency
between the Subcontracts and Prime Contract,
Odyssey acknowledges that the provisions of the
Prime Contract govern. See Odyssey PFC, at ¶ 4
(citing Subcontract Section 1(c) and (d) ).
25

In fact, the correspondence dated August 3, 2009,
advising that all work was deemed to be
substantially completed and accepted following the
July, 8, 2009, inspection differentiates between the
substantial completion inspection and prior
inspections: "This acceptance does not include punch
list work (resulting from the substantial completion
inspection, prior inspection , or other agency
inspections) and/or remaining incidental contract
work, if any." See Exhibit 44 (emphasis added).
26

In addition, Odyssey asserts "that achieving
substantial completion of a contract precludes
contract termination and limits a contracting party
to a specific damage remedy." See Odyssey Pretrial
Brief, at 12. Notably, it was Odyssey that identified
the Subcontracts separately and provided that it was
27

A103

terminating its four Subcontracts. See Exhibit 40.
Further, in pursuing its argument, Odyssey fails to
provide its analysis in the context of substantial
completion as a defined contractual term. To the
extent Odyssey raises this as a limitation of damages
issue, this Court is not addressing damages in this
Opinion.
Odyssey contends that the spreadsheet circulated
on February 26, 2008, (Exhibit X) covered its first
three Subcontracts thereby establishing substantial
completion of those Subcontracts. See Pretrial
Statement, at 39; Odyssey Post–Trial Reply Brief, at
7–11. Even if the Court found this document to
support Odyssey's position, to the extent Odyssey
contends that L & L failed to submit a requisition for
Odyssey's contract balances pursuant to § 106–b(2),
that argument fails for two reasons. First, § 106–b(2)
references substantial completion of the contract
between the owner and prime contractor. Second,
that section provides for a period of 90 days before
the contingency of payment by the owner is
determined to be invalid. See Odyssey Post–Trial
Reply Brief, at 11. Accordingly, Odyssey would have
no right to demand the payment prior to May 26,
2008, long after the parties' relationship terminated.
28

A104

It is undisputed that L & L substituted bonds for
retainage. That issue is addressed infra.
29

The Court notes the existence of a letter
agreement between the parties, executed on March
3, 2004, the same date that each of the Subcontracts
is dated. See Exhibit 21 ("Letter Agreement").
Odyssey has sought to exclude the Letter Agreement
from consideration alleging that it constitutes
extrinsic evidence barred by the merger clause
within the Subcontracts and further that the Letter
Agreement was subsequently superseded and
contradicted by correspondence from L & L. See
Odyssey Pretrial Reply Brief, at 1–2; Odyssey Reply
to PFC, at 13–14. As far as subsequent
correspondence, the Court is unconvinced that the
Letter Agreement was superseded (Exhibit 22).
Further, the letter by Alvin Levine (Exhibit G)
referencing "four separate subcontracts" relates to
Odyssey's inability to bond the entire amount which
is consistent with the Letter Agreement. As to the
merger clause in Section 27 of the Subcontracts, the
clause is limited in scope and does not clearly
extinguish the Letter Agreement. See Ocwen Loan
Servicing, LLC v. ResCap Liquidating Trust (In re
Residential Capital, LLC ), 533 B.R. 379, 397–98
(Bankr.S.D.N.Y. 2015). L & L characterizes the
30

A105

Letter Agreement as a valid and enforceable
agreement by the parties that constitutes a single
assent by Odyssey to complete all four Subcontracts
which were segregated only for accounting purposes.
The Letter Agreement, which specifically refers to
the four Subcontracts, was executed at substantially
the same time as the first Subcontract (Transcript A,
at 41), supporting a finding that the documents
should be fully integrated and read and interpreted
together. See ResCap, 533 B.R. at 396–97. However,
as set forth more fully herein, the Court need not
rely upon the Letter Agreement to reach its
conclusion.
The Court notes that at the time of the summary
judgment motions Odyssey raised the argument that
it was wrongfully paid a lesser percentage of
completion. See Exhibit 11, at 10. In addressing
Odyssey's contention, the State Court found
Odyssey's
"rather
elaborate
computations"
insufficient to show that it was not paid for its work.
Id. at 12. While the State Court observed that L & L
conceded some amount was due to Odyssey, it was
not clear on the record whether that amount was not
yet due at the time of termination but rather would
only become due following substantial and final
completion. Id. The State Court went on to observe
31

A106

that, at the time of the Summary Judgment Decision
in 2014, the Project had been substantially
completed and finally accepted leaving the question
of what may be owed to Odyssey in the way of
completion costs and retainage as a result. Id. L & L
takes the position that the remaining contract
amounts were used to complete Odyssey's work posttermination and would, at most, be an offset against
damages that might be found against Odyssey. See
Pre–Trial Brief of L & L Painting Co., Inc. and
Federal Insurance Company ("L & L Pretrial Brief,"
Doc. No. 122), at 8. This Court's Opinion, however, is
limited to a determination of the breaching party
and does not reach the issue of damages.
See Debtor's Memorandum of Law Simplifying
Issues ("Odyssey Supplemental Brief," Doc. No. 160),
at 3–4 (asserting that even if the contractual terms
were not consistent with the mandate of General
Municipal Law § 106–b(2), the statutory provisions
would override contractual provisions to the
contrary). L & L has asserted that the statute,
however, governs time of payment only providing a
remedy for non-payment in the form of an interest
charge as opposed to providing a basis for breach of
contract remedies. See L & L Reply to PFC, at 10–11.
This Court agrees with L & L's position as a
32

A107

violation of the statute does not appear to provide
any basis to establish a breach of the parties'
contractual agreement. Nonetheless, as set forth
herein, Odyssey failed to establish a violation of the
statute as alleged.
Odyssey alleges that the deposition testimony of
Maracic of L & L supports Odyssey's contention. See
Odyssey Post–Trial Brief, at 10–11 (citing Transcript
D, at 14–15). Odyssey's interpretation of Maracic's
testimony is misleading. Maracic testified simply
that
"[w]hatever
the
City
approved
my
subcontractors were paid." The testimony does not
state that the subcontractors were paid or entitled to
be paid the same percentage of completion as L & L
based upon identical trade payment breakdowns.
Furthermore, the question leading up to Maracic's
answer was as follows: "[Y]ou were paying
the...subcontractors for that work based on the value
of their line times , correct?" Transcript D, at 14–15
(emphasis added).
33

34

See Odyssey Supplemental Brief, at 1.

The Court notes that pursuant to Subcontract
Section 1(f), Odyssey acknowledged as follows:
35

A108

...[Odyssey] has independently assured
itself that all of the Prime Contract
documents have been available to it and
confirms that it has examined all such
documents and agrees that all of the
aforesaid Prime Contract documents shall
be considered a part of this Subcontract
by reference thereto and [Odyssey] agrees
to be bound to the Contractor and Owner
by the terms and provision[s] thereof so
far as they apply to the Work hereinafter
described, unless otherwise provided
herein.
If Odyssey believed its progress payments were to be
based upon the Specification and specifically that
the Specification should be interpreted to require
containment costs to be divided evenly per bay
without carving out the tower work, Odyssey could
have raised this at the time it was clearly
negotiating its trade payment breakdown with L &
L.
Notably, reconciling Odyssey's own figures can be
difficult. In reference to the March 28th Meeting,
Kartofilis asserted that the major difference between
the parties' analyses at the time was with respect to
the fourth contract and was a difference of about one
36

A109

million dollars. See Exhibit R111, at ¶ 47. However,
just days after the meeting, in counsel's April 2nd
Letter, Odyssey asserted that the following amounts
were due under Subcontract 4: $51,308.82 in
contract balances and $150,909.65 in retainage. See
Exhibit 41.
To the extent Odyssey previously asserted an
entitlement to payment for alleged extra work (see
Odyssey Pretrial Reply Brief, at 17–18), no credible
evidence was produced in support of that assertion.
Notably, any argument in support of payment for
extra work is absent from Odyssey's post-trial
submissions.
37

Despite this assertion, the Court notes that the
Subcontracts required the continuation of work
during the pendency of a payment dispute. See
Subcontracts, Section 30.
38

Further, the termination of the Subcontracts was
confirmed by counsel's April 2nd Letter, which
referenced the April 1st Letter's termination of all
four Subcontracts, alleged that L & L breached the
Subcontracts causing damages to Odyssey, and
advised that Odyssey would pursue all available
rights and remedies against L & L unless immediate
payment was made. See Exhibit 41.
39

A110

Upon breach of a contract, the injured party must
make an election to either terminate or affirm the
contract; however, the contract cannot be treated as
both broken and subsisting at the same time. See
Rebecca Broadway L.P. v. Hotton , 37 N.Y.S.3d 72,
79, 143 A.D.3d 71 (N.Y.App.Div. 2016).
40

Accordingly, having reached this conclusion, the
Court need not address L & L's alternative
argument that Odyssey abandoned the Project. See L
& L Post–Trial Brief, at 16–17.
41

The Summary Judgment Decision set forth the
parties' arguments on the issue of termination, the
existence of the termination procedure within the
Subcontracts, and the factual dispute with respect to
repudiation. See Exhibit 11, at 12–16. Notably, the
termination procedure set forth in Section 6(c) of the
Subcontracts only appears to apply where L & L
seeks to terminate the Subcontracts for Odyssey's
default. In subsequent filings, Debtor has contended
that it terminated the agreements. See Odyssey
Pretrial Reply Brief, at 12 ("Had the money owed
been paid and adequate assurance been given that
payments would be made in accordance with the
contractual provisions at issue, the contract could
have been reinstated."); id. at 14 ("If, as the Debtor
has shown, the Plaintiff failed to make the payments
42

A111

required by the contractual agreements, then the
Debtor was justified with terminating the
agreements and could not be in breach. Thus, any
‘cure’ is irrelevant. Cure would only be relevant if
the Debtor effectively retracted [any] repudiation.[
]")(citation omitted). See also Odyssey Supplemental
Brief, at 6 ("The above provision is straightforward—
§ 6(g) only applies where the Contractor—i.e. L &
L—wrongfully terminates the contract. Here, it is
uncontested that Odyssey, not L & L , terminated
Subcontract 4 on account of L & L's payment
failures. In fact, L & L's own breach of contract claim
is based on Odyssey's alleged wrongful termination
of the contract. Simply put, because Odyssey
declared termination, § 6(g) is inapplicable....")
(emphasis in original).
Based upon the determination that Odyssey was
the breaching party, this Court need not address any
entitlement to an insurance rebate or the alleged
conversion of equipment. See Stipulation and Order.
These were allegations raised post-termination.
43

